<html>
<title> - BUILDING THE CRITICAL HEALTH INFRASTRUCTURE FOR VETERANS IN ORLANDO, FLORIDA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      BUILDING THE CRITICAL HEALTH


                      INFRASTRUCTURE FOR VETERANS


                          IN ORLANDO, FLORIDA

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2009
                   FIELD HEARING HELD IN ORLANDO, FL

                               __________

                           Serial No. 111-12

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
49-910                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 21, 2009

                                                                   Page
Building the Critical Health Infrastructure for Veterans in 
  Orlando, Florida...............................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    39
Hon. Corrine Brown...............................................     6
Hon. Suzanne M. Kosmas...........................................     2
Hon. Alan Grayson................................................     2
Hon. Ginny Brown-Waite...........................................     3
Hon. Bill Posey..................................................     4

                               WITNESSES

U.S. Department of Veterans Affairs, Robert L. Neary, Jr., 
  Director, Service Delivery Office, Office of Construction and 
  Facilities Management..........................................    31
    Prepared statement of Mr. Neary..............................    47

                                 ______

Allied Veterans of the World, Inc. and Affiliates, Callahan, FL, 
  Jerry W. Bass, National Senior Vice Commander..................    21
    Prepared statement of Mr. Bass...............................    42
American Legion, Jerry Mullenix, Assistant Adjutant, Department 
  of Florida.....................................................    25
    Prepared statement of Mr. Mullenix...........................    45
Central Florida Veterans, Inc., Orlando, FL, Colonel Tom Walters, 
  USAF (Ret.), President.........................................    22
    Prepared statement of Colonel Walters........................    43
Central Florida Veterans Memorial Park Foundation, Inc., Orlando, 
  FL, Neil R. Euliano, MBA, Ph.D., J.D., Past Chairman...........     8
    Prepared statement of Dr. Euliano............................    39
Disabled American Veterans, Andrew H. Marshall, Supervisory 
  National Service Officer, Department of Florida................    23
    Prepared statement of Mr. Marshall...........................    44
USA Cares, Inc., Radcliff, KY, William H. Nelson, Executive 
  Director.......................................................    10
    Prepared statement of Mr. Nelson.............................    41

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. John L. Mica, Member of Congress, Congress of the United 
  States, U.S. House of Representatives, to Hon. Bob Filner, 
  Chairman, Committee on Veterans Affairs, letter dated April 21, 
  2009...........................................................    48


                      BUILDING THE CRITICAL HEALTH

                      INFRASTRUCTURE FOR VETERANS

                          IN ORLANDO, FLORIDA

                              ----------                              


                        TUESDAY, APRIL 21, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 9:40 a.m., in the 
Board of County Commission Chambers, 201 S. Rosalind Avenue, 
Orlando, Florida, Hon. Bob Filner [Chairman of the Committee] 
presiding.

    Present: Representatives Filner and Brown of Florida.

    Also Present: Representatives Grayson, Kosmas, Brown-Waite, 
and Posey.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. Welcome to this field hearing 
of the House Veterans' Affairs Committee in beautiful Orlando. 
We are here at the invitation of our local Congress people, and 
we are pleased to be here to talk about the facility needs of 
our veterans in Orlando.
    I ask unanimous consent that Ms. Kosmas, Ms. Brown-Waite, 
Mr. Grayson, and Mr. Posey be invited to sit at the dais for 
the full Committee hearing today. Without objection, so 
ordered.
    Also, I ask unanimous consent that all Members may have 5 
legislative days in which to revise and extend their remarks. 
Hearing no objection, so ordered.
    We thank the commissioners for allowing us to use the Board 
of County Commission Chambers. It is a beautiful building.
    And we thank you all for being here.
    I am educated by my Members over here--Ms. Brown, Mr. 
Grayson, Ms. Kosmas--that the magic number is 371. Whenever 
they pass me in the Congress, they say, ``371, 371,'' because 
that is the money that is needed, $371 million, to complete the 
Orlando project. I just have to say, if we can give $180 
billion to an insurance company and several trillion to some 
big banks, we surely can afford $371 million for Orlando's 
project. So we are going to make sure that occurs.
    I want to recognize, just for more of an explanation, the 
Members of Congress who invited me here today. Let me just 
start with Ms. Kosmas.
    Welcome to our Committee. Thank you for your constant 
persistence to make sure we do our job. You are recognized for 
an opening statement.
    [The prepared statement of Chairman Filner appears on p. 
39.]

          OPENING STATEMENT OF HON. SUZANNE M. KOSMAS

    Ms. Kosmas. Thank you, Mr. Chairman. I am pleased to be 
here. And welcome to all those who are presenting at the 
hearing this morning and those who are here as our invited 
guests.
    As many of you know from having met with me yesterday and 
earlier, that we are working very hard in my Congressional 
District, 24, to ensure that the U.S. Department of Veterans 
Affairs (VA) Medical Center receives the funding it needs.
    And that is 371, Mr. Chairman.
    And we have been communicating very directly with you about 
the things that we feel are important, that you have shared 
with me that you feel are important, about providing the kind 
of quality of life and dignity and respect that you, as 
servicemembers and veterans, have provided for this country.
    And I never would like to miss an opportunity to say thank 
you for your service, thank you for what you are doing now, and 
how much I appreciate the fact that you have made the major 
sacrifice, you and your families, in order to provide the 
safety for this Nation over many generations and that you will 
continue to do so. You are truly the American heroes in this 
Nation. And everything that we can do to help you, we are 
looking forward to doing.
    Thank you.
    The Chairman. Thank you, Ms. Kosmas.
    And your co-conspirator with 371 is Mr. Grayson. Welcome to 
our Committee. We welcome both of you to the Congress. And, Mr. 
Grayson, you are recognized.

             OPENING STATEMENT OF HON. ALAN GRAYSON

    Mr. Grayson. Thank you, Mr. Chairman.
    I would like to say a few words about my father, if I 
could. My father served in the military for a few years early 
in his life. And, after that point, he had, I think, what most 
people would describe as a good life. He taught history. He 
became an assistant principal and then a principal. He had two 
children: a daughter, who by all accounts has done extremely 
well; a son, so-so, you know.
    The Chairman. The jury is still out on that.
    Mr. Grayson. That is right. We will see about him.
    But a good life, an interesting one. And if you look back 
on his life--he passed away 9 years ago. If you look back on 
his 78 years, the fact is that he spent 3 percent of that time 
in the military and 90 percent of it outside the military. But 
when his life was approaching the end, he had a decision to 
make. His decision was what would happen to his body after he 
was gone. All of his relatives, his parents, his sisters, his 
brother--he came from a family of five children--they were all 
buried in New York. And, instead, he made a different decision. 
He decided to be cremated and to have his ashes interred at 
Arlington Cemetery.
    And, looking back on it, I think I understand why. He had 
the sense that, despite all that he was able to do after he 
served our country, the most important time of his life was 
when he was serving our country. And because of that, he 
decided to rejoin his comrades in arms after he died.
    So when I vote to support you, to support veterans around 
the district and around our country, I feel what I am really 
doing is honoring my father.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Mr. Grayson.
    As a former Member of this Committee for 6 years, and we 
miss her, Ms. Brown-Waite from Florida, you are recognized. We 
appreciate your being here today.

          OPENING STATEMENT OF HON. GINNY BROWN-WAITE

    Ms. Brown-Waite. Thank you very much, Mr. Chairman. We 
appreciate your holding this hearing today.
    Good morning. I am Ginny Brown-Waite. My district comes 
right up to Orange County. I have the second highest number of 
veterans of any Member of Congress, and so obviously my 6 years 
that I served on the Committee were very, very important to me. 
I still continue to follow the Veterans' Affairs Committee and 
what is happening and the importance of meeting the needs of 
veterans.
    The greener pastures--and I am not sure they are green--but 
the Committee that I now am on is the Ways and Means Committee, 
which means I will have, you know, still an input on providing 
the necessary funds to make sure that veterans' needs are being 
met. I enjoyed the 6 years very much that I was on the 
Committee and will continue to follow the Committee hearings. 
And, with the number of veterans that I have in my district, 
you know that this is very important to me.
    I also would like to, with your permission, Mr. Chairman, 
recognize Dick Harkey, who is a district staff representative 
for Congressman John Mica, who represents a large portion of 
this Orlando area. He could not be here today, but he did care 
enough to send a staff person.
    I would also like to request unanimous consent to submit 
his letter about his views on welcoming the new VA hospital 
here. And, with that, I will hand that to you.
    The Chairman. Without objection, this will be accepted into 
the record.
    Ms. Brown-Waite. I appreciate that.
    [The letter from Congressman Mica appears on p. 48.]
    Ms. Brown-Waite. Since coming to Congress in 2003, I have 
seen firsthand the number of needs of veterans. As a matter of 
fact, before I got sworn in, I think the VA was swearing at me, 
because I wanted to make sure that veterans' needs were being 
met. We have developed a good relationship. When I call the VA, 
they are always very responsive because they know I verify 
those numbers.
    And, to my colleagues who are new to Congress, I would 
suggest you do that with every agency. If they give you numbers 
you just don't feel are right, go ahead and challenge them, get 
your numbers straight. And don't be afraid to challenge any 
agency.
    With the thousands of soldiers who are returning from the 
frontlines who survive wounds that previously, in previous 
wars, would have killed them, it is Congress' obligation to 
care for these injured men and women. The opening of the full-
service Medical Center for veterans in Orlando is a huge and 
important step in fully meeting the promises that the Federal 
Government made to our men and women in uniform. Veterans will 
no longer have to travel 2 hours to Tampa or Gainesville or Bay 
Pines or any of the other facilities for treatment; it will be 
right here. And Orlando will no longer be the largest 
metropolitan area without a VA hospital.
    This $665 million facility will have 134 in-patient beds, 
in addition to the 120-bed community center and 60-bed 
residential rehabilitation program. It will have state-of-the-
art medical equipment and serve hundreds of thousands of 
veterans in central Florida. The hospital will also serve a 
critical need in meeting the expected needs of those entering 
the VA system over the next few years.
    As a result of the war in Iraq and Afghanistan, the VA is 
expecting a large influx of new patients into the healthcare 
system. Yet more does need to be done. We have fought hard in 
Congress to ensure the Federal Government meets its obligation 
to those who serve their country. And I can tell you that this 
is on a bipartisan basis. It is not just the Republicans, and 
it is not just the Democrats. This is one of the issues that we 
work in a bipartisan manner on, to make sure that veterans' 
needs are being met.
    Most of my veterans go down to either Bay Pines or Tampa 
right now. And in the James Haley area, the hospital there, we 
have a spinal cord injury extended care program that was funded 
just about a year ago. It is a 30-bed, 22,000-square foot 
facility. And it has met a very vital need in the community. As 
you know, there are so many Iraq and Afghani veterans coming 
back who sustained traumatic brain injuries (TBIs) and/or 
spinal cord injuries. This is a blessing in the community, that 
we have this wonderful care there.
    However, there are still a lot of improvements that must be 
made in the handling of veterans' healthcare. For instance, the 
tracking of medical records still includes paperwork and hard 
copies of medical records accompanying servicemembers 
transferring stateside and, ultimately, to the VA. Obviously, 
the Department of Defense (DoD) and the VA have to work much 
harder on the Joint Patient Tracking Application and the 
Veterans Tracking Application system.
    I look forward to hearing from the witnesses who are here 
today about the progress of the new Orlando VA Medical Center 
and what technologies the Medical Center will utilize.
    I welcome all of the witnesses and appreciate their taking 
the time to help inform us of the progress that is taking place 
on this very important facility today.
    And, with that, Mr. Chairman, I yield back the balance of 
my time.
    The Chairman. Thank you, Ms. Brown-Waite.
    Mr. Posey, we thank you for joining us today and welcome 
you to our hearing. You are now recognized.

              OPENING STATEMENT OF HON. BILL POSEY

    Mr. Posey. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing today.
    East-Central Florida has been in need of a veterans 
hospital for quite some time. A hospital for veterans in this 
underserved area of our Nation has been talked about since the 
early 1980s. With actual construction set to begin this summer, 
I am pleased to say that the local hospital for our veterans is 
well on its way to becoming a reality for all those who have 
waited for so long.
    I thank you, Mr. Chairman, for the work you do on behalf of 
our Nation's veterans and for your support of this veterans 
hospital. I know that the veterans of east-central Florida 
thank you for taking the time to come on down here to Florida 
and to hear directly from them.
    Representatives Brown and Brown-Waite, you are fighters for 
all our Nation's veterans, but Florida veterans in particular. 
Thank you for being here and for your work on the Committee and 
on behalf of the veterans hospital over all these years.
    I am glad to join my colleagues, Representative Kosmas and 
Representative Grayson, as it is the veterans across our 
Congressional districts who will benefit the most from this 
hospital once it opens its doors.
    I think we also owe a debt of gratitude to our 
predecessors, Congressmen Dr. Weldon, Ric Keller, Tom Feeney, 
even as far back as Lou Frey, who worked so hard at getting 
this project off the ground, who at one time recognized it as a 
dream that needed to be fulfilled, who got the hospital 
authorized and who are responsible for securing the 
appropriation of nearly half the funding needed for the 
hospital.
    I believe more than anyone else, however, we owe a debt of 
gratitude to our veterans, without whom we would not be here 
today. Not only have the veterans in this community been 
working so hard to see this hospital become a reality, but it 
is they who sacrificed and gave of themselves to defend our 
liberty and protect this Nation. We owe much to the veterans of 
yesterday, today, and tomorrow. This hospital is but a small 
token of what we could and should be doing to make sure that 
their needs are met.
    Florida is second only to California when it comes to where 
veterans choose to reside. More than one-third of Florida's 1.8 
million veterans live in central Florida. Yet, currently, there 
is no VA hospital to serve our veterans. This is particularly 
troubling given the fact that this area is the number-one 
destination for combat veterans over 65 or veterans who have 50 
percent or more service-connected disability. The need is, in 
fact, great.
    My constituents in Osceola, Brevard, and Polk will be well-
served by this hospital. In 2012, when this hospital opens its 
doors, more than 400,000 veterans in central Florida will be 
served by this state-of-the-art facility. Veterans seen at the 
clinic in Brevard or the community-based outpatient center in 
Kissimmee will now have an in-patient facility closer to home 
and within the VA healthcare system that can care for their 
specific needs. I also believe that the co-location of this 
facility with other medical facilities, including the new 
medical school, will greatly enhance the medical care our 
veterans will receive.
    I recalled earlier this morning a personal observation. 
When my father-in-law, years back, was told he needed to have 
both legs amputated, it was pretty tough to deal with to 
psychologically work yourself up mentally to have your legs 
amputated. But he did it, and he was transported to Tampa. And 
when he got there, after the agonizing months of facing that 
surgery, they told him, ``Look, we are at capacity. You have to 
go home and come back another day.'' My, how times have 
changed, and they have changed for the better. And it has been 
thanks to leadership like yours, Mr. Chairman.
    Thank you, Mr. Chairman and veterans, for what you have 
done for our Nation and on behalf of your fellow veterans.
    The Chairman. Thank you, Mr. Posey.
    The lady sitting next to me has served with me on the 
Veterans' Committee for 17 years. There is not a more 
passionate or aggressive advocate for veterans in the United 
States, and particularly in Florida, than Ms. Brown. She never 
stops fighting for veterans.
    She invited me to be with her in Jacksonville yesterday and 
Orlando today. But when you have an invitation from Corinne 
Brown--``invitation'' implies choice. When Ms. Brown gives you 
an invitation, it means you better be there.
    You have an incredibly good Congresswoman, and I am pleased 
to recognize Ms. Brown for her remarks.

            OPENING STATEMENT OF HON. CORRINE BROWN

    Ms. Brown of Florida. Thank you, Mr. Chairman.
    First of all, I want to thank the Commission for letting us 
have this hearing here.
    And Commissioner Linda Stewart is here. And good morning, 
Linda, and thank you for joining us.
    Ms. Stewart. Thank you for joining us, and thanks for 
everything you do. Thank you.
    Ms. Brown of Florida. Mr. Chairman, I want to thank you for 
holding this hearing today in Orlando. And I appreciate the 
time that you have taken from your district to visit our 
district.
    We have served together on the Committee on Veterans' 
Affairs for 17 years. And I want to say, your leadership as 
Chairman has been marked by the largest increase in the 
healthcare budget in the history of the Department of Veterans 
Affairs, and I want to thank you.
    And let's give him a hand.
    I am pleased that you were able to come to Florida, and I 
am pleased to show off to my constituents your leadership.
    We have been waiting for a full Medical Center here in 
central Florida for 25 years. When we broke ground last year at 
the site, I was excited about the medical complex that has been 
planned, along with the co-location of the new University of 
Central Florida Medical School and also the Burnham Institute 
for Medical Research. This biotech cluster will allow this area 
to become one in which doctors and researchers can work 
together on the needs of our area veterans.
    And let me mention, Mr. Chairman, that is exactly what we 
are trying to do in Jacksonville. And the medical complex is 
already in place, where you have the Shands hospital, teaching 
hospital, you have the University of Florida, and you have the 
VA already located there. And there is another model that we 
are trying to do in the New Orleans area. So this is a model 
that I think works very well for the VA.
    Years ago, during the first Base Closure and Realignment 
(BRAC) process--and I had just gotten elected to Congress, and 
it was a very traumatic experience for me--I brought down 
Secretary Jesse Brown, in my opinion one of the greatest VA 
secretaries that we have ever had. I convinced him, in my own 
special way, that we needed to keep the hospital for the 
veterans. And he was able to go to the Department of Defense, 
and they gave that hospital to the Department of VA. And we 
were able to get the money there and convert that center, the 
Medical Center there. And so I want to make sure we keep that 
center operational in conjunction with the hospital that we are 
trying to get.
    I am pleased that all of the witnesses are here to discuss 
the infrastructure needs in central Florida. Florida has one of 
the greatest population of elderly veterans in the country, and 
we are not getting the facilities to help us with all these 
people. We have great climate, just like you do in California, 
but you don't have the hurricanes, and we love it here. And we 
need the infrastructure support, and we don't need to wait 
another 25 years. So I am excited that, as we move forward, 
that we look at design-build.
    And, in closing, I think it is important for me to mention 
and repeat the words of our first President of the United 
States, George Washington. He said, ``The willingness with 
which our young people are likely to serve in any war, no 
matter how justified, shall be directly proportional as to how 
they perceive the veterans of the early wars are treated and 
appreciated by their country.''
    The people here in Florida are the best people, and I am 
pleased to hear from my constituents and the VA on their views 
as to what we are going to do in this area to make sure it 
happens.
    Thank you again, Mr. Chairman, for being here. I yield back 
the balance of my time.
    The Chairman. Thank you, Ms. Brown.
    We are all excited to be here. We have a new Administration 
in Washington and a new Secretary of the Department of Veterans 
Affairs. General Shinseki, a Vietnam combat veteran, is the new 
Secretary for VA. He had a foot amputation and he understands 
what veterans go through. As an Army commander and then Chief 
of Staff of the Army, he was known as a ``soldier's soldier.'' 
He looked out for his men and women. I call him a ``veteran's 
veteran,'' as he will continue to look out for veterans.
    We go into this year with a great deal of optimism.
    Ms. Brown of Florida. Mr. Chairman, will you yield just a 
second about the Secretary?
    The Chairman. Sure, Ms. Brown.
    Ms. Brown of Florida. I am very excited about him. He only 
has one problem. He has not been to Florida since boot camp. 
And so, his image of Florida is not what it needs to be. So I 
have invited him to come to Florida as soon as possible. But 
his experience in boot camp wasn't exactly a positive image of 
Florida.
    I yield back.
    The Chairman. I will tell you, at General Shinseki's first 
appearance in Congress this year, the first invitation to visit 
a district came from Ms. Brown. So she is on the case.
    We will start with our first panel: Neil Euliano, the 
Immediate Past Chairman of the Central Florida Veterans 
Memorial Park Foundation; and Bill Nelson, who is the Executive 
Director of USA Cares.
    They have submitted written testimony, which we will put in 
the record. If you could summarize your remarks in 5 minutes, 
so that we will have some time for questions, that would be 
great.
    Dr. Euliano, you are recognized.

STATEMENTS OF NEIL R. EULIANO, MBA, PH.D., J.D., PAST CHAIRMAN, 
    CENTRAL FLORIDA VETERANS MEMORIAL PARK FOUNDATION INC., 
  ORLANDO, FL; AND WILLIAM H. NELSON, EXECUTIVE DIRECTOR, USA 
                   CARES, INC., RADCLIFF, KY

         STATEMENT OF NEIL R. EULIANO, MBA, PH.D., J.D.

    Dr. Euliano. Thank you very much, Chairman Filner and 
Members of the Committee, particularly Congresswoman Brown, 
who, I am pleased to say, that you are correct in assuming what 
she has done for the veterans is paramount to this district.
    I am pleased to appear before the Committee to speak on the 
infrastructure of the new Veterans' Administration complex at 
Lake Nona. And I thank you for the opportunity to discuss the 
potential for greatness of this facility.
    At its core, I believe this facility is a straightforward 
mission of providing the best possible medical buildings. And 
while bricks and mortar may be straightforward, the 
infrastructure that will constitute this facility will be more 
difficult. We are preparing for a hospital that will operate in 
the future, and we must address an infrastructure that will 
come into existence 4 to 5 years out and make our best efforts 
to make sure that infrastructure is state-of-the-art and 
malleable enough to adapt to future programs and needs. I 
realize it is difficult to think ahead when most of us do not 
believe in the weather forecast 3 days out, but my point is 
that we are changing and changing rapidly.
    Did you know the top eight jobs in demand next year did not 
exist in 2002? We are currently preparing our Nation's students 
for jobs that don't yet exist; technologies that haven't yet 
been invented; and solving problems that have not yet been 
identified as problems.
    To wit, Convergent Engineering, a new emerging company in 
central Florida, focuses on applying artificial intelligence, 
advanced signal processing, and cutting-edge technology to 
biomedical research. Their goal is to solve high-risk, high-
reward problems in biomedical engineering. Data is everywhere, 
but useful information is rare.
    Let me give you an example. Something called ``poor 
medication adherence'' occurs when patients do not take their 
pills or forget to take their pills. It has a significant 
negative impact on pharmaceutical manufacturers in the 
healthcare system. Patients suffer from increased mortality, 
increased recurrence of chronic conditions, increased hospital 
and nursing home admissions. Pharmaceutical manufacturers lose 
revenues of $25 billion a year because of unfilled 
prescriptions. Healthcare systems suffer increased costs, 
estimated to be over $100 billion, from additional patient care 
required. And in certain populations, such as psychiatric 
illnesses, patients are particularly prone to poor adherence.
    But a pill has been developed, a pill with a memory chip. 
This pill will be uniquely identified once it enters the 
digestive track, and a detector can be worn on your arm like an 
MP3 player. This system uses a proprietary integrated circuit 
designed to minimize difficulties in communicating inside the 
body. While you are driving to the doctor's office, he can 
access your internal data and be better prepared to diagnose 
your problem.
    Will our new facility be ready for this technology? Let's 
look at the new inventions and procedures in just the last 5 
years: surgical robots for the performance of precise surgery; 
wireless medical devices and communications that I was just 
talking about; large MRIs and other imaging devices; expansion 
of laparoscopic surgery--open heart surgery no longer necessary 
when they can do it using laparoscopy; increased need for 
isolation rooms to prevent spread of disease; and new proton 
beam cancer treatment.
    Now, let's look at the future 5 years from now when this 
hospital comes online: new genetic medical research results; 
nano-medicine. Sixty-five billion dollars wasted yearly in poor 
bioavailability. ``Bioavailability'' is when you take 
medication and it doesn't get to the problem. In vivo 
electronics: ocular sensing, brain-machine interface, spinal 
cord repair--all implantable or wearable devices. We are not 
just changing; we are changing exponentially. And it is 
important our infrastructure addresses those problems in the 
future.
    As Cathryn Bang, a Harvard, MIT graduate, says, there is a 
technology race in healthcare. Hospitals are investing in new 
medical technology at a frenetic pace. The goals are to improve 
patient outcomes, enhance patient safety, and decrease 
operating costs.
    Five years ago, there was only one proton treatment center 
in the country. It was in southern California. Located in Loma 
Linda, it pioneered cancer treatment unheard of 10 years ago. 
Proton beams treat prostate cancer, lung cancer, and brain 
cancer, and they do so without damaging good cells as they get 
to the bad cells. So far, 21 new centers are being planned, and 
over 60,000 patients have already been treated in just a very 
short period of time.
    And will our new medical facility be able to handle that 
new technology? I can break down the infrastructure into 
hundreds of parts, but there are three core areas I want to 
talk about.
    Health workforce systems: Who are the health workers? Are 
they prepared? Who is going to train them?
    Information and communications, patient surveillance and 
alert systems, organizational systems and capacity. A strong 
health organization gives facilities better use of the tools, 
information, and their workforce.
    And last is partnerships. Earlier, I mentioned a company in 
biomedical research. Let me mention a few more with roots right 
here in central Florida. The VA hospital could partner with the 
United States Army's PEO STRI, Simulation, Research and 
Training. Located right here in Orlando, it can integrate the 
latest methods of modeling and simulation and provide Veterans 
Affairs Medical Center (VAMC) with the latest technology 
available in the world. Burnham Research Institute in Orlando, 
a new research company is moving in here with chemistry, 
pharmacology, and functional genomics as their specialty. 
Nemours, a new Orlando neighbor, is one of the largest 
children's care and research centers in America. And we have 
our own University of Central Florida's new medical school and 
school of nursing, supplying healthcare professionals at every 
level. The Central Florida Research Park, with its many 
cutting-edge research firms that produce new technologies. 
These can be partnered very well with the new VA Medical 
Center.
    As I come to the end of my litany, my message is that we 
must move forward at deliberate speed with a visionary approach 
to the future.
    Thank you, Chairman Filner and the Committee, for allowing 
me to testify this morning.
    [The prepared statement of Dr. Euliano appears on p. 39.]
    The Chairman. Thank you for your visionary views. I am just 
worried about the veteran who forgets to swallow the memory 
chip.
    Mr. Nelson.

                 STATEMENT OF WILLIAM H. NELSON

    Mr. Nelson. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to address the Committee at today's 
hearing. I am Executive Director of USA Cares. We are a 
Kentucky-headquartered national charity. I am joined here today 
by my local Florida regional manager, Ms. Cheryl Lynn Sagester, 
who is sitting back here behind me.
    What we do is we are a charity that provides financial 
assistance grants to military personnel and veterans' families 
in times of need. USA Cares serves post-9/11 military and their 
families in three key areas: quality of life, housing, and 
combat-injured, which includes our visible and invisibly 
wounded. Since 2003, USA Cares has provided over $5.5 million 
in direct financial aid to help our military families in these 
three program areas. We don't do loans; we do grants.
    Our work in the combat-injured program is most relevant to 
today's subject matter. And I would like to take just a few 
quick minutes to describe what we have learned, for the 
Committee's consideration.
    While USA Cares has provided significant financial relief 
to uninjured servicemembers and their families, it is surely 
the combat-injured who are presented with a host of unique 
challenges. At USA Cares, we get roughly 5,000 requests for 
assistance a year from military families and military 
personnel, and many of the toughest to resolve are those who 
are combat-injured.
    Any servicemember or veteran who has served since 9/11 in a 
combat zone and was shot, hit by an improvised explosive device 
(IED), or became chronically ill is eligible for our 
assistance. Many of these combat-injured have been discharged 
from active duty and now rely on the Veterans Health 
Administration to competently deliver promised and earned 
medical benefits.
    One persistent issue that my caseworkers in our advocate 
center face is often the prohibitive distance from a Medical 
Center to the veteran's home. Obviously, the local hospital 
being built here is a great relief to that problem.
    I will give you a quick example. One of our national 
spokespersons is a young sergeant named Bryan Anderson. Bryan 
lost both his legs and his hand in an IED explosion in Iraq. He 
received great care during his recovery. Kudos to all those who 
helped him there. But his prostheses were single-sourced from a 
company four States away from where he lives. And, of course, 
whether he lived here in Florida or elsewhere, oftentimes these 
veterans have to go to that site to get those devices updated, 
refitted, and taken care of.
    At USA Cares, it is not uncommon for a wounded veteran to 
contact us requesting financial assistance to help make the 
journey to that single site to get that particular item taken 
care of. So, certainly, more attention needs to be paid to the 
sourcing of some of these quality-of-life, critical items for 
our veterans, like prostheses, where his presence is necessary 
for an actual fitting or an adjustment, where they have to make 
those travels.
    USA Cares has developed what we call our Warrior Treatment 
Today program in response to the significant need for veterans 
and active-duty alike to access treatment for post-traumatic 
stress disorder (PTSD) and TBI. A RAND study of last April 
indicated at least 300,000 afflicted servicemembers and 
veterans with this problem. About half of those are estimated 
to be untreated or undiagnosed as of yet. Many veterans we find 
will not accept residential rehabilitation for PTSD because 
they can't leave their jobs. They can't afford financially to 
leave their job for 2 months or 3 months and go get the care 
they need at a Veterans PTSD rehabilitation center.
    USA Cares, in cooperation with the VA, is working with 
veterans referred to residential rehab treatment. We are paying 
their household bills. Basically, if somebody is referred to me 
by a VA PTSD treatment center that, ``Hey, this veteran would 
like to come in and get treated, but he cannot afford to come 
because he can't afford to pay his mortgage and his house 
payment and his bills to go spend 2 months getting what he 
needs done done,'' at USA Cares we are paying his bills for him 
so he can access that treatment.
    The program is up and running in Texas, for example, and we 
intend to extend it here in Florida, particularly in central 
Florida, and in our home State in Kentucky. I know Florida has 
two residential rehabilitation centers for PTSD. I am pretty 
sure, as I talked to them, both are operating at capacity now 
with a fairly significant waiting period to get in. And that is 
pretty consistent with other rehab centers for PTSD I have 
talked to across the country.
    Given the alarming suicide rate among not only our active 
duty--I think it is at historic highs, at the moment, for 
active duty and veterans, I would like to propose, certainly, 
that a more robust public-private partnership be nurtured here 
in Florida and nationwide to do these kinds of things.
    In Texas, I have some private-sector providers who 
currently provide DoD-approved PTSD treatment programs and 
actually have active-duty patients in them right even as we 
speak. This safety valve of a private-sector program is saving 
lives that might be lost while waiting in line for a VA bed to 
open up.
    I will give you one example. We had an Operation Iraqi 
Freedom (OIF) veteran in Texas who had been assigned a bed date 
for the Waco program, residential program, but his bed date was 
2 months away. He attempted suicide. He spent a week in a 
clinic. Of course he has a wife and two children. Our concern 
was what happens to him when he comes out, with a 2-month bed 
date. Working with the local OIF/Operation Enduring Freedom 
(OEF) program manager, they found, with us, private foundation 
funds to actually allow this veteran to immediately go into a 
residential PTSD program with one of my private-sector 
partners. I think we saved his life because he wouldn't have 
made it to his VA bed date at the rate he was going.
    The OIF program manager did not have VA funds to make that 
happen, so she had to rely on a local foundation and USA Cares. 
I believe most of our OIF/OEF program managers that I have 
worked with would eagerly embrace an option, if funds were 
available, to fee out our high-risk veterans who have a 
suicidal episode or two or three and are waiting for months to 
get a bed date to go to that residential VA facility.
    The recent murder-suicide that was reported in Las Vegas, I 
think everybody saw it. This young airmen who killed his wife 
and then himself about 2 or 3 weeks ago had something like 38 
separate psychiatric or psychological visits to Air Force 
medical support people. He desperately needed to be in a 
residential program and was not in one. It is a tragedy. 
Anything we can do to prevent that loss is one more.
    So I would recommend that, if possible, take a look at 
developing a line-item-type capability for that OIF/OEF 
coordinator that is out there in the field that is dealing with 
lots of veterans. One that I talked to in Big Springs, she is 
pretty burned out after 4 years of dealing with veterans with 
limited resources. She has a thousand veterans to care for and 
321 screened for PTSD. That is the level of the problem. 
Multiply that by hundreds of OIF/OEF coordinators across the 
country--here in Florida certainly is a good example of that, 
as well--and you can see what the magnitude of that problem is.
    Finally, on infrastructure, I think based on our experience 
of 6 years helping post-9/11 veterans that a public-private 
partnership is, in fact, the best answer to critical, right-now 
needs. I do believe in and certainly encourage building more VA 
hospitals. I am a 20-year Navy vet, so I am happy to see more 
infrastructure going in that direction myself, and I certainly 
appreciate that.
    And I know finding the medical staff to fill those 
hospitals is an ongoing problem, but I hope the Committee will 
take under advisement the fact that certain needs must be 
addressed right now. We are losing veterans right now, 
particularly in the area of PTSD and TBI treatment. The private 
sector is helping some, but I would encourage a much stronger 
partnership and some flexibility in funding for our local OIF 
folks to find answers for their high-risk veterans.
    I thank the Committee for your time.
    [The prepared statement of Mr. Nelson appears on p. 41.]
    The Chairman. Thank you so much for those insightful 
comments.
    Ms. Brown, any questions?
    Ms. Brown of Florida. Thank you. Yes, I do.
    Doctor, thank you for your testimony.
    I have a quick question. You talked about the proton beam, 
and I am very excited about that. We have it in Jacksonville at 
Shands. But this is a very expensive piece of equipment. One of 
the reasons why I like the model of the VA and the teaching 
hospitals all being together is that they can use this 
equipment. We don't all have to buy that piece of equipment. 
And like what we are trying to do here, we can use it together 
and share and share the same employees.
    What do you think about that model? I mean, because this 
piece of equipment is very, very expensive. We only have three 
operational proton beams in the whole country. But, like you 
say, it is cutting-edge, as far as killing the bad cancer cells 
and not destroying, you know, the other tissue.
    Dr. Euliano. You are correct, Congresswoman. It is a very 
expensive piece of equipment, and it comes with a lot of 
technology, but the benefits of it are immense. With these 
cancers that are very difficult to treat, you can be treated as 
an out-patient. Five days of treatment can virtually cure 
prostate and brain cancers. The beam goes in; it doesn't damage 
good cells as it passes; it doesn't damage good cells as it 
leaves the body. And, as you might suspect, when we get up in 
years, some of these cancers become more prevalent. And it is 
an excellent idea to share that.
    The one in Jacksonville with the University of Florida is 
Florida's first and only one, thanks to the people in southern 
California who pioneered this many years ago--not many, but 5 
years ago.
    I think, if there were any way to get extra funding to put 
a proton cancer beam or a positron tomography in the new VA 
hospital, you would do this area, this community, this 
southeastern United States a great service, just a great 
service.
    Ms. Brown of Florida. Well, sir, I just want you to know, 
when I heard about the proton beam in Jacksonville at a board 
meeting, I said we had to have one, and we have it. And it is 
up and operational. So, I know that cutting-edge technology 
will really help the people in the area--and that is something 
that we should probably work for in this area. But having the 
medical complexes, it is just too expensive just for one 
hospital, but it is something--that is the kind of shared 
equipment that we need to push forward.
    Dr. Euliano. I think that the Jacksonville facility is 
going to be a boon for Florida, first of all----
    Ms. Brown of Florida. If we ever get it up and operational, 
the Jacksonville facility.
    Dr. Euliano. Yes, it is operational----
    Ms. Brown of Florida. No, no, no--yes. I am talking about 
the facility we are trying to do there for the veterans. You 
know, we had testimony on that yesterday.
    Dr. Euliano. In Jacksonville, yes.
    Ms. Brown of Florida. Did you understand my question?
    Dr. Euliano. The veterans facility in Jacksonville is close 
to my heart. I have two kids that are MDs at Shands at the 
University of Florida, and they are excited about the new 
facilities the VA is responsible for in those particular areas. 
Was that your question?
    Ms. Brown of Florida. Yes, sir. Yes, that is pretty much 
close to it.
    Dr. Euliano. And I apologize for not hearing. A long time 
ago, far, far away, I lost an eye and an ear, and Joe Battle 
has agreed to help me out this morning.
    Ms. Brown of Florida. Thank you.
    Just a last question for Mr. Nelson.
    Mr. Nelson, it has been a real challenge getting the VA to 
partner with other organizations. And, you know, we have been 
discussing how is the best way to do that, and the Chairman 
said maybe we should just take a billion dollars and do 
partnerships in the different communities. But there has to be 
some way that we can expand the reach of what we are doing. 
Because the VA does a good job, but they are definitely not 
meeting the needs of the mental health patients. We have the 
highest suicide rates, so we need to be doing more. And we 
should be able to partner with these local organizations that 
work with mental illness and drugs and other things.
    What do you think is the best advice you can give us, as 
Members of Congress, to get VA to do more partnerships?
    Mr. Nelson. Well, I think it is true that I hear the 
Washington rhetoric about more resources for the VA in the 
budget and yet, when I talk to OIF/OEF program managers who are 
working with the veterans out in the countryside, they are 
being told their resources are being reduced. So there is that 
whose-reality-are-we-dealing-with-today kind of problem.
    So, the real reality is the one that our veterans face 
every day that need treatment. And I would say that there are 
wonderful organizations--not just mine alone; there are many--
that would love to help the VA in working with local veterans. 
We are in a situation where we never deployed the Guard and 
Reserve before, like we did in this war. I mean----
    Ms. Brown of Florida. They are our draft.
    Mr. Nelson [continuing]. All these folks are all over our 
neighborhoods. We have a huge mental health problem. These 
folks are not just sitting on an active-duty base waiting for 
help. They are working at Lowe's, they are working at Home 
Depot, they are in your library, or they are teaching in your 
schools. They are in Baghdad on Monday, they are home on 
Thursday. That is the reality of this war and what they have to 
face.
    So I do know that many of the OIF/OEF program managers I 
work with would love to see some protected money provided to 
them as a safety valve so that they can, in fact, energize the 
private-sector help when they have a high-risk veteran that 
just cannot get help in time because the VA's facilities are 
quite crowded.
    Most people will tell you that the family is a key player 
in the rehabilitation of a PTSD patient. The answer of taking a 
VA patient, a veteran, shipping him four, five States away from 
his home because there may be a bed four or five States away is 
a pretty unacceptable answer, because we need her there. She is 
part of the solution, and she has already been part of, you 
know, the system that is keeping him alive, at this point, with 
his PTSD.
    So we need local support, empowering that OIF/OEF program 
manager with line-item funds that she or he can use at least at 
a minimum to save the high-risk veterans and use local 
community assets to do it. I think you would find that people 
would step right up and support it.
    As I say, in Big Springs, Texas, the OIF coordinator, she 
went out and found a local foundation literally to pay the 
TRICARE rate to put a young veteran into a private program 
that, by the way, already had 17 active-duty people in that 
program. So when we are talking about private-sector options, 
we are talking about private-sector options that DoD is already 
exercising for their active-duty soldiers because they know 
they don't have enough beds in the active-duty military 
treatment facility world to handle the number of PTSD patients 
they have.
    So I think that would be part of it. More money at the top 
of the VA is probably not going to filter down to that person 
unless we had some specificity in that capability.
    Ms. Brown of Florida. Thank you so much.
    The Chairman. Thank you.
    Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman. And I 
was remiss before in not expressing the fact that Ranking 
Member Steve Buyer could not be here today, which is one of the 
reasons why he asked us to be here to represent our side of the 
aisle.
    You know, a public-private partnership truly is a great 
idea. It takes a lot of work. I know because I did it in The 
Villages here. The Villages is a housing area, massive housing 
area that encompasses three counties. And I got the developer 
to give the land and the building for a community-based 
outpatient clinic. It takes a lot of convincing, a lot of ``Of 
course you want to do this for the community,'' but it truly is 
a win-win. It is a win for the veterans who are in the area, 
and it certainly is a win for the VA because they don't have to 
spend the money for additional facilities.
    But it is tough to convince people to donate, particularly 
in this economy. But if you are persistent enough and sometimes 
sweet enough and sometimes tough enough, you can get it done. 
And I know, Ms. Brown, you are sweet and tough enough to get 
that kind of public-private partnership to work.
    Ms. Brown of Florida. Would the gentlelady please yield for 
a second?
    I agree with you. But I am saying that I think--and I don't 
know exactly how we should do it; you were on the Committee--
that it should be some kind of incentive dollars that we could 
partnership with local partners. There are organizations, like 
this gentleman, USA Cares, that if we had some incentives to 
work with them and put out grants, so that it will be, you 
know, working with the public-private partnership.
    Ms. Brown-Waite. Absolutely. And that is one of the things. 
There are organizations around. I know there are a couple----
    Ms. Brown of Florida. So we can stretch our dollars. That 
is what I am saying.
    Ms. Brown-Waite. Right. Absolutely. As I said, it is a win-
win. It is a win for the VA because they don't have to do the 
capital expenditure. And it is certainly a win for the 
veterans, who have healthcare closer to home.
    One of the questions that I have--I had introduced a bill 
that still has not yet been heard in the Committee but one that 
I think probably we could tailor to the needs of whether it is 
PTSD or whether it is the prosthetic needs. And that is that if 
a veteran cannot get healthcare within 30 days--now, PTSD may 
need to be immediate--but that he or she would have the right 
to go to a private provider and have the VA pay for the bill.
    I think that that is absolutely a necessary thing, 
particularly in today's world. Now, quite honestly, veterans in 
Florida have a lot more selection in close proximity of 
facilities, whereas in North and South Dakota and other States 
they do have to travel that amount of time. And it just seems 
to make sense that the VA should contract this kind of care 
out.
    Mr. Nelson, I would like to ask you--you know, like you, I 
believe PTSD is such a serious issue. Do you know what programs 
out there are really working and what programs aren't working? 
I want to make sure we are not spending public dollars on 
programs that may be there and be in the community but really 
aren't working. Can you share your experience with this panel?
    Mr. Nelson. Yes, ma'am. I am not a clinical expert; I am 
more of the kind of guy that sees a barrier to a veteran who 
cannot get to that program because of financial issues.
    But I would say the VA is running an excellent program. The 
PRRPs, the PTSD Residential Rehabilitation Programs, I think 
are excellent. They are replicated by a number of private-
sector providers, as well, in all the latest techniques that 
they use. I am familiar with a number of very cutting-edge 
national experts that the VA draws in to keep their programs up 
to date.
    I think our biggest problem is getting veterans to these 
programs. Many of them won't come because they know they can't 
afford to leave work for 2 or 3 months. So they are not even 
accessing that quality program that is out there.
    Ms. Brown-Waite. Sir, maybe I misunderstood you, but I 
thought you said that there was a wait in the residential 
programs.
    Mr. Nelson. Yes, ma'am. It is interesting, I talked to the 
head of the VA's PTSD program, who is probably going to hate me 
for saying this now. But he asked me to keep him informed if I 
came across a residential program that had a waiting line 
longer than 2 weeks. And I haven't found one yet that had a 
waiting line less than 2 months. So I am not sure whether that 
inside-Beltway thing is going on again here, but there is 
certainly a difference in reality between what perhaps people 
think the length of time to access programs is. But normally it 
is running about 2 months in most of the centers I have talked 
to. I think that includes the one here at Bay Pines, as well.
    Ms. Brown-Waite. See, sir, that is exactly the kind of 
information that policymakers like the Members of the Committee 
and Members of Congress need to know, not just what we are told 
by any agency, but actually, you know, the experience of people 
on the ground, such as yourself.
    You know, I camped out in a community-based outpatient 
clinic to get real data. Did the VA like it? No. But did it 
accomplish what needed to be done? Yes. And so, your sharing 
this information with us about the wait times is very, very 
important, and we appreciate it. And I think our job is to find 
out, you know, why do they need more funding.
    The OIF/OEF coordinators, your view is that they are 
totally underfunded, is that correct?
    Mr. Nelson. Well, I think in the areas where I have had 
dealings with them, their biggest frustration has been 
certainly in funding and in resourcing, you know, for the 
veterans assigned to them. When we talked about trying to fee 
out this one individual who was a high-risk veteran, she simply 
had no funds to do that whatsoever. It was just not even an 
option. He either waited in line for these--by the way, Texas 
has about 1.7 million veterans, and they have one residential 
rehab center, and that is in Waco, Texas, which puts about 240-
ish through a year. That is their throughput. They screen about 
5,000 a year there.
    Ms. Brown-Waite. So could we gather the kind of support for 
a, you know, maximum of 30-day wait period, less with PTSD if 
the need is there? How does the OIF/OEF coordinator treat the 
immediate need? It is today, it is not 15 days from now, it is 
not 30 days from now, that person needs treatment today. I 
know, in my district, they pick up the phone and call me. But 
how does this get handled?
    Mr. Nelson. Well, in the one case I mentioned, I did call 
Senator Hutchison's staff, and her case manager was able to 
give us a hand to move this particular veteran to the front of 
the line at the VA facility. But if you have flown on an 
airplane lately, being wait-listed is like not getting on the 
plane. It is usually pretty full. The same thing is certainly 
true at the VA centers; they are full. So being at the front of 
the line isn't really much comfort.
    They really need to have the capability to go to qualified 
private-sector providers and take the high-risk veteran and get 
them the help they need.
    Ms. Brown of Florida. Mr. Chairman? Mr. Chairman?
    Ms. Brown-Waite. May I just continue along the line of 
questioning before you go ahead?
    Sometimes I hear from veterans organizations, they are 
fearful that, when we start contracting out, that it will 
impair the funding that goes to the VA. Give me your views on 
that, please.
    Mr. Nelson. Well, I had two tours in the Pentagon. I have 
worked on budgets. So I do understand those competitions for 
different pots of money. I would say that that is an issue, and 
I know it is a concern. It is back there. But what I see is a 
veteran that needs to help, and a wife and two kids, and they 
are calling me on the phone and she is crying. He needs help, 
now.
    Ms. Brown-Waite. But there are more veterans service 
organizations that fight and don't want the private-sector 
involved. They are fearful of a takeover.
    Mr. Nelson. Well, all I can say is that, if you believe 
most of what the RAND study provided us, that there are 
300,000-plus active-duty and veterans who probably have a PTSD 
issue, and half of those have yet to be diagnosed or come 
forward. And the VA is already maxed out in the facilities it 
has. If there is not a private-sector component to this, I am 
not sure how we are going to avoid another Vietnam era, where 
we have a lot of veterans who are self-medicating with drugs 
and alcohol, who are not getting treatment.
    Ms. Brown-Waite. Mr. Chairman, I appreciate your 
indulgence. I yield back.
    The Chairman. Okay. Ms. Brown.
    Ms. Brown of Florida. Yes, but when we have the Department 
speak, would you ask them to speak to this issue? Because my 
understanding, the way it works now, if a veteran--they can go 
to a hospital, but the question is whether or not the VA will 
reimburse them. And so maybe we can--and I think in your bill 
you pushed the VA to reimburse them for these issues.
    The Chairman. Ms. Kosmas.
    Ms. Kosmas. Thank you, Mr. Chairman.
    I just would like to make a couple of comments in response 
to your testimony and to suggest that, first of all, Dr. 
Euliano, I really respect your visionary perspective on what 
can happen and should happen as we move forward, building this 
great facility and being prepared for, as you say, things we 
don't even know exist right now, but we are moving in the right 
direction for better healthcare, better equipment.
    I think you touched on something that is very important to 
me, and that is the uniqueness of the opportunity that we have 
here at the medical city to provide the kinds of partnerships 
that will put us on the cutting edge of both science and 
technology in order to ensure not only that the VA hospital, VA 
Medical Center is state-of-the-art but also the opportunity to 
partnership with both the UCF Medical School, their school of 
nursing, to provide perhaps the personnel that we need, the 
Nemours Children's Center, and the Burnham center.
    And we met earlier this week with a group of related 
healthcare givers who are very, very interested in partnering 
and being part of what the President has outlined as the most 
significant thing we can begin to do now, which is the 
integrated healthcare technology. And so I think we have here a 
very unique opportunity to provide a prototype for the kind of 
sort of futuristic, if you will, opportunity that you have 
discussed. As you know, the research center there, attached to 
the UCF campus, is a breeding house for all the kinds of great 
new discoveries that you had talked about.
    So, really, just a comment to say that we need to ensure 
that we build upon that synergy and ensure that all those 
organizations are working together to make sure that, as I 
said, not only the VA center, but that all the rest are able to 
take advantage of those things. And I appreciate very much your 
putting a spotlight on the need to do that as we move forward. 
Physical construction is one thing, but the opportunity to take 
advantage of those kinds of new technologies and scientific 
discoveries is extremely important to our ability to move 
forward with improving the healthcare here and around the 
country.
    And, Mr. Nelson, I just wanted to thank you also for what 
you do. In this district, I have a constituent who I was 
chatting with several months ago. Her young son, a bright, 
shining, young individual, served in Iraq, came home, suffered 
depression, attempted to get healthcare through the VA, 
unfortunately took his own life. And that is just one example 
of a situation which is untenable to us, who have, you know, 
the duty and the obligation to provide care that is needed for 
these young people coming back from these wars. So I thank you 
very much for what you are doing in that regard.
    And I wanted to suggest to you that, yesterday, in our 
roundtable of my veterans council, we had the opportunity to 
take input from--the University of Central Florida has on 
campus a program that they are just now beginning in order to 
take care of veterans' needs and provide a one-stop kind of 
location. And the University of Central Florida told us 
yesterday that they have 800 veterans enrolled in classes there 
at UCF as we speak, and that involves family members up to as 
many as 1,800.
    So I was suggesting to your local person, Cheryl Lynn, that 
if we can put them together and also put them together with the 
gentleman, Barry Barker, from St. Petersburg, who is the 
processing center for this area, who has provided an 
opportunity on the University of South Florida campus, then 
perhaps we can put another situation together where we can have 
the opportunity to discover early where some problems may occur 
and then be able to put people in the right kind of care that 
they can use for the services that you provide and, I think 
agreement here, that we should be providing to a greater degree 
as the Veterans Administration.
    So, again, I thank you both for being here. I don't have 
specific questions. I just wanted to make those comments in 
response to your testimony. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Posey.
    Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman. I understand that 
when we are in Washington the common way to ask questions is to 
invite the gentleman from Florida to ask questions but today 
that would be very confusing. So I understand why you said Mr. 
Grayson.
    It's a thrill to have you here in my district. I really 
appreciate your visit, and I'm glad to see that so much of a 
large part of the Florida delegation is here today to address 
these important issues.
    Dr. Euliano, the most common and almost pervasive problem 
among veterans returning from Iraq is neurological 
difficulties, essentially brain damage, often caused by 
concussions, often caused by IEDs; and recent studies show that 
15 percent of all of our servicemen and women who return from 
Iraq suffer from that. What do you expect to see at Lake Nona 
to provide that kind of treatment which is so important to the 
people returning from Iraq?
    Dr. Euliano. As I mentioned before, one of the newest 
things is this proton beam; and, of course, there's other 
things that are out there that are coming forward now. One was 
the positron emissions tomography (PET), which is primarily 
used in cancer detection also. Those PET centers are springing 
up all over the United States.
    In response to what Congresswoman Kosmas and Congresswoman 
Brown also said, which touches on what you are talking about, 
are these partnerships; and I think one of the questions was 
how can the Committee help in these partnerships. Congressman 
Charles Rangel just recently, within the last year and a half, 
awarded the University of Florida a million dollars for 
research on emergency room techniques. They expect to save 40 
thousand lives as a result of this research. If this Committee 
could go back and fund some of these ideas for these young 
scientists that are out there that are available to step up and 
make these inventions a reality, this would go a long way in 
helping the veterans and the general public.
    The information that we get now is so immense that we have 
to set up these Committees that can fund things that can solve 
these brain injuries, these unique things that occur with 
veterans and the general populace as well. Any invention that 
is a life safety issue not only helps the veterans, it helps 
the general public.
    The brain injury treatments that they have now are not the 
best that we can do. The best that we can do is to continue to 
develop these emerging technologies. And, as I said in my 
presentation, we're not just changing, we're changing 
exponentially. Which means that spreading widely--and I wish I 
could give you concise answer as to how these treatments could 
take place, but in 5 years everything that we say here may not 
be as relevant as we think.
    Mr. Grayson. Well, thanks.
    My question specifically is that we're going to have--we 
already have hundreds of thousands of veterans returning from 
the war in Iraq. Tens of thousands of them have neurological 
abnormalities that are permanent, according to what we're 
seeing in the medical records. Those tens of thousands include 
many hundreds, maybe even thousands, who are going to be living 
right here in central Florida and are going to be part of the 
veterans' medical system literally for the next half century.
    So as we start to build a new facility that is meant to 
deal with problems big and small for veterans here in the 
population, knowing that that is one of the big, permanent 
problems that we face, are there any particular kinds of 
treatments, skill sets, facilities that you think that we need 
to include in order to make sure that we can deal with that 
problem?
    Dr. Euliano. I don't think the way it's currently set up 
that you can deal with that. I think you've only got 40 
psychiatric beds in the new facility, and I think you will need 
far more than that. But it's a start. As people have said, 
we've waited 25 years for this hospital. We're not going to 
risk not getting it because we didn't get everything we needed. 
But these injuries are serious, they're complex, and they're 
profound; and we work with what we've got to work with today.
    Mr. Grayson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. We appreciate your testimony, and 
we will try to use it all in the legislative process. Thank you 
so much.
    As the second panel is joining us, I want to just thank 
both Senators Nelson and Martinez for having representatives 
here and for being interested in the needs of our veterans. 
Please will send our regards to the two Senators.
    If Jerry Bass, of the National Senior Vice Commander of the 
Allied Veterans of the World and Affiliates, will come to the 
table with Tom Walters, President of Central Florida Veterans. 
Andrew Marshall is the Supervisory National Service Officer for 
the Department of Florida, Disabled American Veterans (DAV); 
and Jerry Mullenix is the Assistant Adjutant for the Department 
of Florida for the American Legion.
    Each one of you is recognized for 5 minutes, and we 
certainly appreciate all of your activities on behalf of our 
veterans.
    The Chairman. Mr. Bass.

 STATEMENTS OF JERRY W. BASS, NATIONAL SENIOR VICE COMMANDER, 
 ALLIED VETERANS OF THE WORLD, INC. AND AFFILIATES, CALLAHAN, 
   FL; COLONEL TOM WALTERS, USAF (RET.), PRESIDENT, CENTRAL 
   FLORIDA VETERANS, INC., ORLANDO, FL; ANDREW H. MARSHALL, 
 SUPERVISORY NATIONAL SERVICE OFFICER, DEPARTMENT OF FLORIDA, 
   DISABLED AMERICAN VETERANS; AND JERRY MULLENIX, ASSISTANT 
        ADJUTANT, DEPARTMENT OF FLORIDA, AMERICAN LEGION

                   STATEMENT OF JERRY W. BASS

    Mr. Bass. Thank you, Mr. Chairman, distinguished Committee 
Members.
    My name is Jerry Bass. I served my military duty in the 
United States Air Force, and currently I am the National Senior 
Vice Commander of Allied Veterans of the World, Incorporated 
and Affiliates. Some of you may remember when Congressman 
Crenshaw recognized our organization on the floor of Congress 
this past September. We are a small but persistent veterans' 
organization that works tirelessly toward one goal, of helping 
veterans' healthcare. During the last 20 months, we've donated 
over $2.7 million, most of which has been donated to veterans' 
healthcare systems in Florida. We realize that you as a 
Committee cannot do it all, and that's why Allied Veterans is 
committed to improving and helping improve the quality of 
veterans' healthcare.
    However, I would like to commend you as a Committee and as 
Members of Congress. In these times when our dollars are 
stretched to the limits, you as a Committee and Members of 
Congress have awarded Veterans Affairs with what I've been told 
is the largest budget in its 77-year history. For that, I 
commend you.
    Thus far, your commitment has directly impacted millions of 
veterans throughout these United States. However, as the influx 
of new veterans move into Florida, our budget continues to 
increase and so does the need for more healthcare for our 
State's veterans.
    The new VA hospital slated to be built here in Orlando and 
opened in 2012 will serve over 400,000 veterans in the east-
central section of Florida. Without your ongoing dedication to 
veterans, this new VA hospital would not be possible. This 
future state-of-the-art facility will be a reminder to today's 
VA that it's not what our fathers knew as the VA of yesterday.
    I often think about Congresswoman Brown's story that she 
tells quite often--and I tell it quite often, too--of her visit 
to a VA facility here in Florida. When she walked into the ward 
of that hospital, there were several veterans there in that one 
ward. The facilities that they were to share were at the end of 
the hall. Those veterans had to walk down the hall to use the 
restroom and sometimes when they got there had to wait their 
turn to be able to use it. That day, Congresswoman Brown 
decided that she was going to try to help change things for 
veterans in Florida.
    The allotted funding for the VA facility here in Orlando to 
be built, as I said, will serve 400,000 veterans here in this 
area, but it will also support the VA outpatient clinics in 
such areas as Daytona, Viera, Leesburg, Kissimmee, and Orange 
City. These facilities all fall under the funding for the 
Orlando VA hospital and serve countless thousands of other 
veterans.
    Ladies and gentlemen, we all recognize that the need for 
improvements in veterans' healthcare is there. When faced with 
the vital decisions regarding funding for veterans' healthcare, 
please proceed with due respect of our veterans' steadfast 
dedication to our country, dedication to our children's 
country, and the unrelenting sacrifice to uphold our country's 
freedom. Our veterans continue to unite America's heart and 
soul. Please continue to protect the healthcare of our 
country's heroes just as they dedicated their lives to protect 
our country. Please stand up on behalf of veterans and honor 
their sacrifice by continuing to improve veterans' healthcare 
in the State of Florida.
    I thank you, God bless America.
    [The prepared statement of Mr. Bass appears on p. 42.]
    The Chairman. Thank you sir.
    Colonel Walters.

         STATEMENT OF COLONEL TOM WALTERS, USAF (RET.)

    Colonel Walters. Mr. Chairman, Committee, good morning.
    I'm Tom Walters. I'm a retired colonel, having served 28\1/
2\ years in the United States Air Force. I currently serve as 
the President of Central Florida Veterans.
    Florida has the second largest population of veterans in 
the United States, second only to the great State of California 
where I grew up and from where I entered the Air Force. Florida 
is number one in the Nation with a veterans population that is 
50-percent disabled or greater. Florida is number one in the 
Nation with a veterans population that is over 65 years of age. 
Florida is 35th in the Nation when it comes to funding 
veterans' programs. I feel this needs to be addressed and 
corrected.
    It is my understanding that the stem problem is that 
Federal funding for veterans programs is based on the 
proportional number of individuals that enter the military from 
a given State. As I mentioned earlier, I entered the Air Force 
from California. Yet I chose to retire here in central Florida. 
If my understanding is correct, funding for my portion of 
veterans' programs is going to California, not Florida, where I 
reside.
    Moving on, we are thrilled with the prospect of a new 
Veterans Affairs Medical Center. It will cure the vast majority 
of shortfalls in healthcare infrastructure for veterans here in 
central Florida.
    The current projected cost to finish the project is $371 
million, which, as was discussed earlier, I have been told we 
will see funded in the fiscal year 2010 Federal budget. In 
today's recessed economy, that dollar amount appears right on 
target. However, my concern is if the stimulus program gains 
traction and construction rebounds, $371 million may not be 
adequate due to higher demand of materials and labor. I ask 
Congress and this Committee to keep an eye on the actual costs 
so that we don't have to downscale what is planned to be a 
first-class facility.
    Speaking of ``first class,'' I haven't heard of budgeting 
for equipment and furnishings. Going back to my Air Force 
experience in the 1990s, I helped close a similar-sized Air 
Force hospital. If my memory is good, the depreciated value of 
the furnishings was in the neighborhood of $70 million. I would 
expect the cost of state-of-the-art equipment, along with 
furnishings, in today's market to bring a price tag of $150 to 
$200 million. Hopefully, this is already being worked with 
consideration of early funding for long lead equipment items.
    Another issue that is critical to the healthcare 
infrastructure for veterans is the adequate and timely funding 
of annual operational costs. We, the Central Florida Veterans, 
have discussed and support advance funding or, in effect, 2-
year funding, to avoid falling under a continuing resolution 
year after year. In 19 of the past 22 years, Congress has 
failed to pass a VA funding bill before the start of the new 
fiscal year. Per our meeting with Congresswoman Kosmas 
yesterday I understand Congress is already addressing this and 
acting upon it. I thank you for that attention to this issue. 
Thank you, Congresswoman.
    My final topic is transportation. I recently watched Field 
of Dreams, and if you build it they will come. Well, I find 
that it would be very sad if you built it and they can't come. 
Transportation to and from our new facility is critical for 
many central Florida veterans. As mass transit projects for 
central Florida are discussed in Washington, DC, please support 
the appropriate projects and, second, advocate and support that 
the VA Medical Center needs to be included as a destination.
    I thank you for your time.
    [The prepared statement of Colonel Walters appears on p. 
43.]
    The Chairman. Thank you, Colonel.
    Mr. Marshall.

                STATEMENT OF ANDREW H. MARSHALL

    Mr. Marshall. Good morning, Mr. Chairman, Members of the 
Committee.
    First of all, 371. Thank you for inviting the DAV to 
testify at this field hearing of the Committee on Veterans' 
Affairs on building the critical healthcare infrastructure for 
veterans residing in and around the Orlando, Florida, area. The 
DAV is an organization of 1.2 million service-disabled veterans 
and devotes its energies to rebuilding the lives of disabled 
veterans and their families.
    As you may know, the almost 30-year struggle to construct a 
hospital in central Florida began in the 1980s. Plans to build 
a 470-bed Department of Veterans Affairs facility that would 
serve disabled veterans in this area have been made in the past 
and have failed. In 1983, the VA indicated it would build a 
hospital in Brevard County because it was furthest from VA 
facilities located in Tampa and Gainesville, both of which were 
serving central Florida veterans and continue to serve central 
Florida veterans. In 1992, the VA revived the plan to construct 
the hospital southeast of Orlando. Between site selections, 
hospital designs, and funding problems, this proposal shrank to 
an outpatient clinic, which opened in 1999.
    Since the 1990s, Florida's veterans population has grown 
from 1.55 million to over 1.8 million. Such growth moved 
Florida from the fourth largest State to the second largest 
veterans population in the country, with 400,000 of those 
veterans located in central Florida. Notably, this number does 
not include those veterans who choose to make Florida their 
home during the winter months of the year.
    It has been a concern for the DAV department of Florida 
that less than half of the veterans in the Orlando area are 
within VA's access standards for hospital care. They average 
over 2 hours of travel time to and from VA hospitals located in 
either Tampa or Gainesville for treatment that often turns out 
to be an all-day event. This includes veterans living in 
Orange, Seminole, Brevard, Volusia, Osceola, Polk, and Lake 
Counties. With the economic downturn and because so many 
disabled veterans live on fixed incomes, some find the cost of 
transportation to a VA hospital is just too high and are left 
with two choices: they could ration and go without the 
treatment they need or they could skip on food or other 
necessities to pay for transportation costs to the VA.
    To ease the burden of traveling these distances, the DAV 
Department of Florida supports the DAV Transportation Network, 
which allows disabled veterans to get to and from VA healthcare 
facilities for needed care. In Florida, our hospital service 
coordinators operate 10 active programs. They have recruited 
volunteer drivers who logged over 56,000 miles last year in 
Florida, providing over 38,000 veterans rides to and from VA 
healthcare facilities. To meet appointments at the Orlando 
clinic, over 1,300 veterans were transported approximately 
22,000 miles. These veterans rode in vans purchased by DAV and 
donated to VA healthcare facilities for use in the 
Transportation Network.
    With great concern for our fellow disabled veterans in need 
of medical care, the DAV Department of Florida supports the 
construction of a new Orlando VA Medical Center which will 
serve central Florida veterans. This six-county region has one 
of the largest veterans population in the United States without 
a VA hospital. The number of veterans seeking healthcare in 
central Florida is expected to peak at 107,500 between 2010 and 
2015, up from the current 90,000 veteran patients who made 
hundreds of thousands of outpatient visits to VA clinics in 
Leesburg, Kissimmee, Orlando, and Viera.
    While previous efforts have been unsuccessful, formal plans 
for a VA Medical Center to be located in Orlando gained 
momentum when it was included in VA's CARES Draft National 
Plan. As many at this hearing are aware, CARES represents the 
most comprehensive effort to build a roadmap which will guide 
allocation of capital resources within the Veterans Health 
Administration. According to the Draft National Plan, 
construction of the Orlando VAMC is needed to meet the growing 
demand for primary and specialty care and for acute care beds.
    Proving that the third time is a charm, Members of this 
Committee and the Florida Congressional delegation were 
successful in securing funding to construct a new medical 
facility here in Orlando which should open in 2012. This past 
September, VA completed its acquisition of 65 acres of land at 
Lake Nona which was selected in March, 2007. In October, 
Florida disabled veterans, members of the DAV, and other 
organizations, local elected officials, Senators and 
Representatives, and then Secretary of Veterans' Affairs, Dr. 
James Peake, were in attendance during the groundbreaking 
ceremony of the Orlando VAMC. This was a proud day for all who 
have persisted and persevered for over 30 years.
    The Orlando VA Medical Center is to have a 134-bed 
inpatient diagnostic and treatment hospital, large outpatient 
clinic with support services, 118-bed nursing home and 60-bed 
domiciliary and a veterans' benefits mini service center. We 
believe the new facility will make it easier for east-central 
Florida veterans to access needed medical care and relieve the 
burden of traveling long distances for their inpatient care. 
Moreover, we believe it is proper that the VA outpatient clinic 
at Baldwin Park, which has a nursing home and transitional 
housing for mental health and comorbid conditions, will remain 
open until the transfer of such new services to the new medical 
facility is completed. We stand ready to work with the Veterans 
Integrated Service Network and Medical Center staff and 
leadership in reevaluating the future of this clinic.
    The Orlando VAMC will be situated from across the street 
from the University of Central Florida's College of Medicine 
and Health Sciences campus, along with the Burnham Institute 
for Medical Research, the University of Florida Research Center 
and the M.D. Anderson Orlando Cancer Research Center. Such a 
``medical city,'' Mr. Chairman, in southeast Orlando will help 
preserve VA's world-class medical care buttressed by its 
numerous academic affiliations.
    In this instance, the UCF's 4-year curriculum set to open 
this fall is projected to produce about 120 medical graduates 
each year. Florida veterans will benefit from such an 
affiliation with clinical training as well as clinical trial 
opportunities.
    Additionally, Orlando's Florida Hospital is poised to 
partner with the VA to help share the cost of diagnostic 
equipment and contribute to staffing and residency needs. This 
commitment will ensure veterans have access to additional 
resources to further enhance the medical services the VA may 
offer.
    Mr. Chairman, while much has been accomplished to date, 
more work needs to be done. We urge this Committee to do its 
work to ensure funding to complete construction of this 
facility is secure and that it continue its strong oversight to 
ensure construction timelines are met. This facility is greatly 
needed, and disabled veterans should not suffer any further 
delays.
    Mr. Chairman, this concludes my testimony. The DAV 
Department of Florida would again like to thank the Members of 
the Committees, the Florida Congressional delegation, and all 
veterans who have worked tirelessly to help build the critical 
healthcare infrastructure for central Florida veterans.
    Mr. Chairman, 371.
    [The prepared statement of Mr. Marshall appears on p. 44.]
    The Chairman. Thank you.
    Mr. Mullenix.

                  STATEMENT OF JERRY MULLENIX

    Mr. Mullenix. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to present the American Legion's 
views on the importance of a fully functional health 
infrastructure for veterans in central Florida.
    As the construction of the Orlando VAMC gets under way, the 
American Legion restates its position on building a healthcare 
system that revolves around the special needs of veterans. We 
also stress the importance of the ongoing modernization and 
configuration of VA facilities to ensure they meet the demands 
of advanced medicine.
    While the American Legion applauds the VA on its transition 
from caring for 90,000 veterans at the current facility to 
400,000 at the upcoming facility, we feel inclined to remind 
Congress of the importance of the new facility's purpose, which 
is to accommodate the ever-progressing medical disciplines 
within its walls to ensure deliverance of quality and adequate 
care to this Nation's veterans.
    Due to the ongoing complexity of illnesses and conditions 
from OIF/OEF returnees, as well as the medical issues of 
currently enrolled Gulf War, Korean war, Vietnam War, and World 
War II veterans, a more sophisticated and serviceable 
infrastructure is required. This includes the assurance of 
comprehensive care for women veterans.
    According to a recent National Institutes of Health report, 
women veterans' use of VA and non-VA providers is influenced by 
the scope of services available and the dissatisfaction for 
those services within VA. It was recommended that VA clinics 
either promote routine gynecological care within the primary 
care clinics or pair traditional primary care with VA women's 
clinics to reduce the fragmentation of the care for women 
veterans.
    Additionally, with an upcoming increase of 265,000 newly 
enrolled Priority Group 8 veterans in July of 2009, the 
American Legion recommends the personnel involved in the 
building of a new VAMC remain proactive throughout the 
construction and beyond due to the complex issues the current 
facility faces.
    In a recent U.S. Government Accountability Office (GAO) 
report, it was discovered that the VA was experiencing a 
shortage of nurses. Studies have shown that a shortage of 
nurses, especially when combined with a greater workload, can 
adversely affect patients and the care they receive. The 
American Legion urges Congress to assess these issues, past and 
present, and ensure those problems aren't transferred to the 
upcoming facility.
    Also, many veterans who previously did not require services 
are enrolling due to job losses and financial difficulties. In 
the summer of 2008, the Orlando VAMC patient enrollment 
increased by 20 percent with approximately 600 new patients. 
This is a significant demand for services that will be 
transferred to the new facility.
    With regard to the state of the current Orlando medical 
facility, the American Legion believes that no healthcare 
delivery system can be expected to provide quality care unless 
the physical settings that house such care are also state of 
the art. The American Legion recommends when constructing the 
new facility that terms like ``best practices'' and ``striving 
to maintain excellence'' be taken literally by the VA to ensure 
all veterans receive the best medical care available.
    The GAO report of March, 2007, noted various issues that 
warranted the construction of a new Orlando facility. These 
issues included the facility condition and location, as 
expanding the existing facility was ruled out as an option due 
to the lack of land available at the existing site.
    Another issue was access issues. The GAO determined that a 
new facility was needed to meet the CARES access proximity 
standard. It was concluded that the new facility would increase 
the percentage of veterans living within 1 hour of acute 
patient care to approximately 80 percent.
    And, finally, veteran population group. The central Florida 
region had the largest workload gap and greatest infrastructure 
need of any market in the Nation.
    The American Legion urges the execution of all policies 
that led to the decision, design, and construction of the new 
facility to include the GAO recommendation that the VA 
implement a new staffing system and assess the barriers to 
alternative work schedules. Every issue discussed in this 
presentation is essential to an effective healthcare system. 
All are intertwined with the purpose of caring for our veterans 
with various complex issues. Leaving these issues unattended 
would render this task futile.
    In conclusion, as this project develops, the American 
Legion recommends Congress be constantly aware of new medical 
issues that arise and anticipate treating them. Such issues 
include military sexual trauma, women veterans' comprehensive 
care, traumatic brain injury, spinal cord injury. And the 
inclusion of the newly enrolled Priority Group 8 veterans, just 
to name a few.
    Mr. Chairman, thank you again for this opportunity to 
address the Committee on the importance of infrastructure 
within the central Florida healthcare network. The American 
Legion looks forward to working with you to continue to enhance 
the mission to provide adequate and quality care to central 
Florida's veterans. Thank you, sir.
    [The prepared statement of Mr. Mullenix appears on p. 45.]
    The Chairman. Thank you, and we thank all of you for your 
dedication to our veterans.
    Ms. Kosmas.
    Ms. Kosmas. I don't have any specific questions. Thank you.
    The Chairman. Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    I appreciate each and every one of you giving your 
statements here today and just wanted to take a moment to just 
ask Mr. Mullenix--am I pronouncing it correct?
    Mr. Mullenix. Yes, ma'am.
    Ms. Brown-Waite. You mentioned the number of newly enrolled 
veterans in the VA system as a result of loosening the 
restrictions on the Priority 8 veterans. We still don't have 
any of the details yet of that change, but do you think that 
the VA and central Florida is currently prepared to deal with 
the increase in the veterans who will be eligible under the 
change under Category 8? Do you think that we are prepared in 
this area for the influx?
    Mr. Mullenix. From the representatives that we have in the 
VA system, I'm getting a little bit of mixed reviews on that. 
Some are saying that we are well equipped for that, while 
others say that we are in dire need of additional assistance to 
be able to facilitate that additional influx. Unfortunately, 
I'm unable to give any details.
    Ms. Brown-Waite. How do your members feel? Is there a 
concern out there?
    Mr. Mullenix. There is a definite concern, ma'am. Anytime 
you add that type of number to an already existing high number 
of veterans in our VA system, it is going to cause an increased 
concern for our members. So, yes, I am hearing reports of 
concerns from our members.
    Ms. Brown-Waite. Obviously, there's going to have to be an 
increase in the funding levels also to accommodate that. It's 
not fair to those who are currently in the VA healthcare 
system. So I think that that's something that we will be 
dealing with, obviously, through the appropriations process and 
through the budgeting process.
    I appreciate your input. Would anyone else care to comment 
on the change in the Category 8?
    Mr. Marshall. Ma'am, I understand from our department 
leadership they met with Gainesville VA officials, and there 
are over six times more Category 8 expected to enroll than they 
expected. That is a lot in just one facility, ma'am.
    Ms. Brown-Waite. And, you know, individuals who did not 
sign up in time for Category 8, as the aging process takes 
place--I compare it to I used to have an old 1959 MG. The older 
the car got, the more maintenance it needed; and certainly the 
older that our population gets, including veterans, the more 
maintenance that they need. And so the cutoff of Category 8 was 
because it was so very, very popular--and I wasn't in Congress 
at the time when they passed the legislation that said, you 
know, the Secretary could always have the opportunity if funds 
were available to curtail that.
    Opening up of Category 8 is a good news--it's certainly 
good news for those who will participate. I want to make sure 
it's not a good news/bad news scenario; and I look forward to 
working with the Chairman and other Members of this Committee 
and the Appropriations Committee to make sure that veterans 
aren't shortchanged who need those services, existing veterans 
in the system, and that we adequately care for the new Category 
8 veterans.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman.
    Thank you, Mr. Mullenix, for giving us some specific 
suggestions about what we can do to make this new center 
better.
    We're at a point where we can make midcourse corrections, 
and many of the most important people deciding exactly what the 
details will be for the center are right here in this room. So 
I appreciate the fact that you pointed out the potential need 
for more nurses and the specific greater need that we're going 
to see for women veterans at these healthcare facilities.
    I'd like to, in the same kind of way, hear suggestions of 
improvements from other members of the panel, starting with Mr. 
Marshall. What are one or two things you would like to see 
happen that would improve the existing plans for this facility?
    Mr. Marshall. Adequate staffing, of course, adequate 
funding and technology.
    Technology, James Haley VA hospital, they renamed the 
spinal cord injury after former Congressman Bilirakis. It's a 
state-of-the-art facility. It's located in Florida. The same 
thing should be located in Orlando.
    You mentioned transportation. We assist with 
transportation. Lake Nona is a ways away from here, if you 
drive, because of traffic problems, congestion. So we would 
hope that the funding is adequate. The 371 now may be 400 when 
it gets down to it, and we would hope that adequate funding is 
available. Without adequate funding, no matter what you do, 
there it won't be enough.
    Mr. Grayson. Good, thank you.
    Colonel Walters, we have these specific plans now in 
existence. What would you do to improve them?
    Colonel Walters. Well, I think the gentlemen to my left 
here already mentioned technology, and I touched on that in my 
talk. I think technology is probably--we need to have leading-
edge technology. The first panel, you heard from the doctor 
that there's so much leading-edge stuff going on right now, 
that we need to capture it and include it in this new facility.
    The second thing again is transportation. I think that we 
really need to be able to make this available to our veterans 
to ensure that they can get to and from.
    I think those that will be the two things I would mention.
    Mr. Grayson. Good. I see some members of the audience 
jotting down notes, which is a very important sign.
    Mr. Bass, what do you think we can do to improve these 
facilities?
    Mr. Bass. The main thing I would urge would be make sure 
that we have plenty of staffing, as was quoted a while ago.
    I go to Biloxi quite often to the VA Medical Center there, 
mainly because they support all of our Panhandle outpatient 
clinics and ambulatory unit over at Pensacola. I go to 
Gainesville, Lake City, Orlando, here now and also down to Bay 
Pines from time to time and to North Carolina to the facilities 
up there. All those are facilities that we help support.
    The main thing I see is staffing. When you go in and you 
see 60 to 80 veterans waiting in line just to get a 
prescription filled because of not enough staffing, you go into 
the emergency room and there will be sometimes that many in an 
emergency room on a weekend night or something. And that's the 
main thing. Doesn't matter how much technology you have. If you 
don't have people there to run that technology and those 
machines and that equipment, they can't get served, and that's 
what we need is staffing in these facilities.
    You've got a great administration staff here at this 
facility who you will be hearing from in a few minutes, the 
director. We've worked real close with him here and also the 
chief of volunteer services. From one level to the next level 
here, you've got a great staff to put together everything, but 
they're going to need people to administer what needs to be 
done.
    Mr. Grayson. Thanks.
    It's wonderful to be able to draw on the expertise of the 
top people here in the veterans community in central Florida 
and listen to your input. Thank you very much.
    Mr. Marshall. May I add one thing? I've been to every VA 
hospital in Florida, and parking is a problem. Adequate parking 
is absolutely necessary.
    Mr. Grayson. We're going to have people park in the Lake. I 
hope that's okay.
    Mr. Marshall. They had valet parking in some places. 
Yesterday, at James Haley, there was not a parking spot to be 
found for outpatient visits, hospital visits.
    Mr. Grayson. I hope someone's making the proper note. Thank 
you.
    Mr. Bass. And that's true everywhere.
    Colonel Walters. It's not very glamorous, but it's honest.
    The Chairman. Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman.
    I've listened to more than a few panels during my public 
service, but I don't think, besides the last two, I've ever 
heard from multiple people speaking with the same vision and 
basically the same way to get there.
    I think the information you provided and your comments that 
you offered Congressman Grayson have been excellent, and I just 
really appreciate you coming and sharing your insight with us, 
and, Mr. Chairman, I just can't thank you enough for making 
this all happen. Thank you.
    The Chairman. Thank you, sir.
    Ms. Brown.
    Ms. Brown of Florida. Thank you.
    Thank you for your service.
    First of all, Mr. Bass, I want to thank you. We worked 
together for a long time, and I want to thank you for your 
service. That facility that you were talking about was at the 
Gainesville. I had gone down there for one of those great Gator 
football games, and I went early so I could visit with the 
veterans. So, in touring the hospital, I found three and four 
veterans in each room, but most disturbing was the fact that 
they had to go down the hall to take showers. You know, that's 
the way it was when I was in college, which was many years ago; 
and I didn't think it was what we needed to have for our 
modern-day veterans. So I was very pleased to be able to get 
the $51 million to complete the center and do the wraparound so 
our veterans will have the modern-day practice and have 
individual showers in restrooms. So, I mean, to me, that just 
made sense.
    And, Mr. Marshall, I never knew how parking could be a deal 
breaker for a facility. I found that out firsthand. So when you 
look at a garage with the price of steel that can drive up the 
cost millions and millions of dollars over budget. So trying to 
figure out that parking is just crucial. I mean, I have seen it 
firsthand how parking can be a deal breaker.
    My last question is for Mr. Mullenix. You mentioned about 
women veterans, and that is something near and dear to my 
heart. One of the problems that we have is that our VA is male 
oriented. How do you think we can further expand services for 
women veterans?
    Mr. Mullenix. Like I said earlier, the biggest problem I've 
seen is that there's a real separation in the services that are 
provided for women veterans. The gynecological care is not 
adequately provided by the VA, currently. So, as I state, it 
needs to be incorporated in one way or the other. Because, 
right now, I think it was 49 percent of female----
    Ms. Brown of Florida. That's the----
    Mr. Mullenix. They're getting the services outside of the 
VA because they're not getting adequate service within the VA.
    So there needs to be some kind of marriage there between 
those services, and they really need to bring that in-house. 
Because, as you said, the number of our women veterans is 
growing more than any other number; and it's very prevalent in 
today's society and our current veteran.
    Ms. Brown of Florida. I don't know whether or not this is 
an area we can experiment with. Because I'm thinking this is 
one way--in many areas, the facilities are already in the 
community; and that would be an example of expanding the 
service without building an additional facility, if we could 
have that kind of cooperation with, you know, some of the best 
medical complexes, you know, in the community.
    Mr. Mullenix. That's absolutely true.
    Ms. Brown of Florida. With the shortage of staff and 
everything, that, to me, is an area that we need to explore as 
a Committee as to how we could better expand the high quality 
of women's--maybe we need to have another women's hearing on 
their needs and how we can best address them.
    Mr. Mullenix. I believe that would be an excellent idea.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    The Chairman. In fact, we have one coming up in Washington 
on May 13.
    Ms. Brown of Florida. I will be there. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. We thank you for your dedication 
to our veterans.
    We ask the U.S. Department of Veterans Affairs witnesses to 
come forward.
    Robert Neary is the Director of the Service Delivery Office 
in the Office of Construction and Facilities Management and he 
is accompanied by Tim Liezert, the Orlando Medical Center 
Director.
    We thank you for your work and hope that you have heard 
some of the earlier testimony. If you could, please respond to 
some of the recommendations or concerns that have been 
expressed. Mr. Neary, you are recognized.

 STATEMENT OF ROBERT L. NEARY, JR., DIRECTOR, SERVICE DELIVERY 
OFFICE, OFFICE OF CONSTRUCTION AND FACILITIES MANAGEMENT, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY TIMOTHY W. 
  LIEZERT, MEDICAL CENTER DIRECTOR, ORLANDO VETERANS AFFAIRS 
MEDICAL CENTER, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Neary. Thank you, Mr. Chairman, Members of the 
Committee. It's certainly a pleasure to be here today. Indeed, 
we have heard from some very effective representatives of the 
veteran community here this morning appearing before us in the 
first two panels.
    I'm pleased to be here today to discuss the progress that 
has been made in bringing the Department of Veterans Affairs 
Hospital to Orlando. This hearing provides an opportunity to 
update the Committee and members of the veteran community on 
the status of the project.
    As you indicated, Mr. Chairman, I'm joined by my colleague, 
Mr. Tim Liezert, the Director of the Orlando VA Medical Center.
    As members of the veteran community know, for many years 
there has been a discussion about constructing a VA hospital 
here in Orlando. We are now making real progress toward that 
goal. We have acquired the site for the new facility. The 
architects are well along in the design process, and we've 
brought with us a couple of boards that are on the side of the 
room that give you a visual of the planned facility. Congress 
has authorized the project and appropriated $294 million toward 
the site acquisition, design, and construction. I am pleased to 
report that construction will begin this year.
    Let me provide some specifics. The new Orlando VA hospital 
will be constructed on a 65-acre site in the Lake Nona 
development in southeast Orlando. It will be adjacent to the 
new medical school at the University of Central Florida. As the 
Committee knows, the VA healthcare system benefits 
significantly from the more than 100 affiliations it has with 
medical universities across the Nation.
    The new facilities will consist of an inpatient hospital 
with 134 hospital beds, a 120-bed community living center, 60-
bed domiciliary, and an outpatient center with the capacity to 
care for 675,000 outpatient visits per year. In total, over 1.2 
million square feet will be constructed; and the initiative has 
a total project cost of $665.4 million. These facilities will 
be staffed by the 2,100 healthcare providers and support 
personnel. VA anticipates that more than 113,000 veterans will 
receive care at the new facility.
    We expect construction of these facilities to start early 
this summer with the award of the first contract to begin site 
development and to organize utilities at the site. VA will 
negotiate the other contracts concerning the community living 
center, the domiciliary, the inpatient and outpatient 
structures, energy center, and parking garages. We anticipate 
completing all construction in mid-2012, followed by the 
activation of the new facility.
    This project demonstrates the Nation's commitment to care 
for our veteran heroes. Not only in Orlando but across the 
country new and improved facilities for veterans' care are in 
design and under construction. Since 2004, $5.6 billion have 
been appropriated by the Congress for the Department's major 
construction program with over 50 major projects receiving 
funding to provide new facilities and improve or expand 
existing ones.
    We look forward to completing the new hospital here in 
Orlando and facilities at other locations and will be pleased 
to answer your questions. Thank you, sir.
    [The prepared statement of Mr. Neary appears on p. 47.]
    The Chairman. Thank you so much.
    You know, in the stimulus bill, the Department was given, I 
think, $1.4 billion. Has that been allocated as of yet and do 
you know if any of that will be coming here?
    Mr. Neary. It has been--$1 billion of that was in the 
nonrecurring maintenance program. It's my understanding that it 
has been allocated. I believe it's been announced.
    I don't know--Tim, you might know the Orlando----
    Mr. Liezert. I don't have specifics. It's all been 
allocated, and we're working on awarding the nonrecurring 
maintenance projects here in Orlando. And we did receive some. 
I don't know how much.
    The Chairman. Okay.
    Ms. Brown, do you have any questions?
    Ms. Brown of Florida. Yes, of course.
    The Chairman. Before you begin, I want you to know that 
these three Members in front of you, along with me, are the 
longest-serving Members of the Committee and the two new 
Members of Congress are doing an incredible job. These Members 
know the issues, they know the problems, they're very 
aggressive, they're active, and it's a pleasure to work with 
them. Because of these three Members, you're going to get your 
hospital on time.
    Ms. Brown.
    Ms. Brown of Florida. Thank you.
    I want to thank you particularly for being in the hearing 
yesterday and today and listening to the veterans and listening 
to us Members, also. I'm happy that we are finally getting 
ready to get this hospital in this area. That's been needed for 
over 25 years.
    You heard the testimony about the cutting-edge technology. 
But you have to have the people trained to do it. I mean, it's 
a partnership. You have this great equipment; and if you don't 
know how to use it, it's a waste. So can you tell us a little 
bit about what are the plans for the facility?
    Mr. Neary. Sure. I would like to make a comment and ask Tim 
to join in.
    As I listened to Dr. Euliano talking about the future, I 
was reminded I've been designing and planning healthcare 
facilities for almost 40 years, and I was reminded of an event 
that occurred early in my career. I was giving a briefing to 
senior officials at the White House's Office of Management and 
Budget, and a person asked me at the end of the briefing, one 
of their executives asked me, which as yet undiscovered medical 
miracle have you planned for in this hospital?
    I was in my 20s, I guess, and didn't know what to say. But 
I've, learned that in healthcare changes take place more 
rapidly than probably almost any other industry, and 
flexibility in the facility is critical so that we can adjust 
as we move forward. Certainly we're putting modern, state-of-
the-art technologies in this facility now, but we need to have 
features and we do have features that will enable us to modify 
it over time to identify other things.
    Maybe, Tim, if you would like to discuss some of the things 
in the building.
    Mr. Liezert. Sure, and good morning.
    From the engineering perspective of things that we're 
doing, include building interstitial space. And what 
interstitial space is; is space between floors that will allow 
us to modify space very easily and efficiently.
    The other thing that we did, in talking with some 
partnerships that we've developed in the community. Florida 
hospital system did a mass capital construction of their system 
here in Orlando; and when they did that, they sent out 
representatives to 57 sites throughout the country and parts of 
the world to see how building a hospital was being done and 
bring back some of the best practices that they saw.
    They have created an imagination station that they invited 
us to be fully engaged in. We were able to go there and see 
some of the things they are doing with hospital building, and 
we've included some of those concepts into our design.
    So the other thing that we're doing is, as Mr. Neary has 
mentioned, building wards that are interchangeable. So, today, 
the front store look might be an ICU bed, but, in the future, 
if it's needed to build that into a general medicine bed, we 
change the storefront or the front of the room and everything 
else stays the same and we can modify that existing space.
    So there's a great amount of flexibility being built in the 
designs that you see on either side of the room.
    Ms. Brown of Florida. You know, the President is very much 
into the greening of the economy and pulling the Congress along 
kicking and screaming. Are we taking advantage of the green 
initiatives to make the building green because this is a brand 
new facility? But I personally don't want to say or do anything 
that will slow down the building of this facility.
    Mr. Neary. Absolutely, we are. We've embraced the concept 
of LEED, of the LEED certification program. LEED is Leadership 
in Energy and Environmental and Design. We do not seek the 
official certification because, as a large building owner, we 
feel we can achieve those goals without expending the resources 
necessary to get the certificate. But in terms of energy and 
sustainability, water efficiency, the use of low-emitting 
building materials, cycling, and using recycled building 
products, dealing with recycling during the construction 
process, working toward high-quality indoor air quality, all 
those things associated with the green process.
    I might also say we have embraced the requirement that the 
energy usage be 30 percent less than what's known as the ASHRAE 
standard, American Society of Heating, Ventilating and Air 
Conditioning. Thirty percent typically relates to office 
buildings, which is a 40- or 50-hour-a-week environment. 
Healthcare being 24/7, in most of the areas it's difficult to 
do that. But we're working very much in order to get that kind 
of energy performance.
    We are conducting a study to look at renewable energies and 
what types of renewable forms of energy we might use at places 
like Orlando, whether that might be solar or wind or, bio or 
whatever. So we are indeed knowledgeable about green and 
committed to having our building program commit to those goals.
    Ms. Brown of Florida. Well, in closing, you know, this 
hospital will be such an economic energy for the community as 
we build it, as we have workers there, and so can you give me a 
time certain date as to when I can expect to go and visit this 
facility completed?
    Ms. Brown of Florida. And I assure you that money will not 
be the issue.
    Mr. Neary. Three hundred and seventy-one.
    Ms. Brown of Florida. You got it.
    Mr. Neary. Yes, we're scheduled to be completed in June of 
2012. We've appointed one of our finest resident engineers to 
serve here in Orlando as a project executive. He's in Orlando 
now.
    One of the keys in a program like this is selecting quality 
construction contractors. We've moved away from low bid a long 
time ago, and we would anticipate we will have some very high-
quality construction contracting firms competing for this work. 
A major part of the selection process is their experience, 
their demonstrated experience at on-time, on-budget 
construction, working well with their subcontractors and with 
building owners. And so we're confident that in the summer of 
2012 this building--this series of buildings will be completed.
    Ms. Brown of Florida. Well, in closing, again, the Chairman 
talks about the bonuses. I would like to see us get in that 
building. If we could put incentives in there to get that 
building done, up, operational, properly done, that, to me, is 
the way we should go.
    Mr. Neary. Okay, well, thank you, ma'am.
    Ms. Brown of Florida. Thank you.
    The Chairman. Ms. Kosmas.
    Ms. Kosmas. Thank you, Mr. Chairman; and thank you both for 
the presentation.
    I just want to reiterate my excitement at being part of 
this great venture that we're on which we are embarking here in 
central Florida. As I said before, not only the VA center but 
the entire medical city; and thank you for your good work. I 
think this was a very, very enlightening opportunity for all of 
us to hear and to have input from others who have specialty 
areas that are of concern to them.
    So, unfortunately, I have to leave, to fly out very 
quickly, but this is the part of the hearing that was going to 
be very interesting to me. Because what I wanted to do was hear 
you respond to the comments that had been made by others about 
their specific needs.
    One was the need for those who are using prosthetics not to 
have to travel long distances. Are you able to care for them? 
What does the facility plan to have offered for PTSD and the 
kinds of needs of that particular patient class? Are you 
addressing specifically the women's needs or do we need to work 
on that and in some different venue?
    I congratulate you on the LEED certification and the going 
green and also the partnership that you mentioned by sharing 
information with Florida hospitals. I met with their Chief 
Executive Officer yesterday, and they were excited. They have a 
site, as you know, down at the Lake Nona center. Not sure where 
they're going with that in the future, but they're very 
interested in being part of that health IT system that will 
provide an opportunity for better healthcare, more economic 
healthcare, better outcomes and that the President has 
embraced, this Administration has embraced so thoroughly, and 
the opportunity to use that information in a way that supports 
the good quality of care that you want to provide.
    Again, I think the excitement among the organizations that 
are all going to be part of this provides a lot of 
opportunities but, specifically, you're able to care for those 
veterans who are in need of a prosthetics, the women's needs, 
and the PTSD.
    Mr. Liezert. Thank you.
    With regard to the question on services, you know, for the 
most part, I can say, yes, all the concerns that have been 
addressed this morning will be addressed by the new Medical 
Center.
    But here's the reality of Orlando. With much that is given, 
much is expected; and the 1,900 employees that work in Orlando 
today, along with the future employees, of tomorrow need to 
work toward delivery models of meeting the best practices of 
tomorrow. Which means, you know, engaging in the top-notch 
research as Dr. Euliano was talking about, delivering new 
clinical practices of what the best will be for tomorrow. We 
cannot be satisfied with status quo in Orlando. Because, as I 
said, much is expected. And we're up to that challenge. We're 
working toward that challenge.
    Ms. Kosmas. Good. Thank you. We're very excited to work 
with you on that challenge.
    The Chairman. Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman.
    I'd like to go back to a question I asked earlier of Dr. 
Euliano. It has to do with the specific nature of the injuries 
that we're seeing coming out of the war in Iraq. The greatest 
single, pervasive problem on people returning from Iraq, 
servicemembers returning from Iraq, is neurological 
abnormalities, specifically, one form of brain damage or 
another, normally caused by concussions, often caused by 
roadside explosives. And, as I indicated, a recent study showed 
that 15 percent of all of the people returning from Iraq, of 
servicemen and women, have such problems.
    And these are problems that are lifelong. So we'll be 
looking at these kinds of problems and the treatment for the 
next 50 years or more.
    So I ask you now, as I asked Dr. Euliano, what do you plan 
to do for people with that specific need? And since you are now 
involved in planning out this facility, is there anything that 
we can do to adjust the plans in order to make treatment for 
that specific problem better?
    Mr. Liezert. I think we're on target with the current 
plans, understanding that the treatment for this signature 
disease of this war probably hasn't been invented yet. We're 
doing all that we can to diagnose it, all that we can do to 
treat it right today, using today's best practice models, but 
the new Medical Center is geared to deliver that treatment and 
in addition be flexible enough to change to whatever the new 
treatment for this diagnosis is in the future.
    The thing that I think we're also here with and cooperating 
with the company and in collaboration with people in Orlando is 
to do the research to deliver the next treatment for whatever 
disease might come along the road.
    So, to answer your question, yes, and with the 
understanding that it's flexible enough to change to meet the 
new delivery model.
    Mr. Grayson. Mr. Neary.
    Mr. Neary. I couldn't add more to that, sir.
    Mr. Grayson. All right. Well, bear in mind that whatever 
studies that we do in order to put together plans for a 
facility like this are based upon past needs, not necessarily 
future needs. But we can look ahead and see there's going to be 
a great future needs for great neurological treatments of one 
kind or another because that is the new injuries that are 
happening right now out in the field and are being incurred in 
defense of the country.
    You heard Dr. Euliano question whether there were going to 
be enough psychiatric beds at this facility. Can you make 
modifications in the plan so you're not fighting the past wars 
but fighting the future wars and the current wars as well and 
treating people accordingly?
    Mr. Liezert. As stated, we have the flexibility in the 
design of the units that's actually six different units with a 
different storefront on it. So it may have a psychiatric or 
mental health storefront on it today, but it will be easily 
modified for the different storefront on it in the future to 
meet whatever future demands may be coming.
    Mr. Grayson. All right. Let me ask you a different kind of 
question. I was touring a hospital here locally and saw one of 
the new striker beds that actually does, among other things, 
translating. So if you want to tell the patient lift your leg 
in Vietnamese, you actually can do that. It seemed remarkable 
to me, almost magical.
    Arthur C. Clarke, the science fiction writer, said that any 
technology sufficiently advanced looks like magic; and that's 
how I felt when I saw that.
    Procurement is actually a particular interest of mine. My 
background was in procurement before I came to Congress. I was 
prosecuting war profiteers in Iraq. So let me ask you, in the 
facility that you're building, are we going to get the latest 
technology like that? Or is there some kind of lag that's built 
into procurement that we could try to deal with through 
changing the law?
    Mr. Liezert. I can tell you what we're looking at, and I 
don't know the regulations because we haven't got into the 
activations piece as yet full bore. But some of the things 
we're looking at through our cooperation and collaboration with 
Florida hospital system is the integration of patient care 
delivery, entertainment, and rehab.
    So, for example, you walk into a room and you have this 
video display and on that video display you can have the 
patient record with images show up on that display, do patient 
education, do patient treatment planning, all around the 
patient. Then the provider leaves the room, and then it turns 
into an entertainment TV or whatnot, Internet perhaps, and then 
later it might turn into a rehab component where we have real-
life technology, using today's terminology, that can do rehab 
through the form of tennis, bowling or whatever else or some 
newly developed software package that would deliver that.
    Now what you mentioned is the next generation of that, and 
that intrigued me. We are working toward developing that and 
working on activating our new hospital with that kind of 
technology.
    Mr. Grayson. Well, as far as you know, will you be able to 
buy, with the Federal procurement system, the latest technology 
or are there legal impediments that we might need to deal with?
    Mr. Neary. We're not aware of any legal impediment that 
prevents the VA from acquiring the best, most advanced 
technologies that VA chooses to procure.
    Mr. Grayson. Good. Thank you, and thank you.
    Mr. Neary. Appreciate your implied offer of assistance if 
we discover something like that. As the Chairman often offers, 
let us know; and we'll address it.
    Mr. Grayson. Good. Thank you, and thank you again Mr. 
Chairman. It's a delight to have everyone here in my district.
    The Chairman. Again, we thank Ms. Brown, Mr. Grayson, Ms. 
Kosmas, and those who participated for inviting us here today. 
We learned a lot, but certainly I think we committed ourselves 
to making this happen on time.
    We're going to close the formal portion of this hearing.
    Are there people here who would like to make any statements 
to the Committee?
    Okay, we will formally adjourn, but----
    Ms. Brown of Florida. Mr. Chairman, before we adjourn, I 
see the Mayor of Orlando here, Mr. Crotty.
    Mr. Crotty, you want to take the microphone?
    The Chairman. Ms. Brown will be taking those questions and 
hoping to solve issues that come up. We thank you for your 
attendance today.
    Mr. Mayor.
    Mr. Crotty. Well, thank you all for coming to the Orange 
County Commission chambers. Welcome.
    It's good to see everybody today, and I look forward to 
working with you in the days ahead as you address this critical 
issue. I see my Mayor's Advisory Group here, and I'm sure 
they've weighed in on some of the concerns they have.
    I will tell you that we have been working a long time in 
Orange County particularly as it relates to the issue of the VA 
hospital. I know Congresswoman Brown and I have had many a 
conversation about that.
    But I actually had an opportunity, believe it or not--it's 
hard for me to even believe--in 1986 to testify before a 
Congressional Committee when Congressman Bill Nelson and 
Congressman Bill McCollum were having a dispute over the 
location. So we have been involved in this issue a lot of 
years. It is now a cornerstone of our city and a huge part of 
our local effort to diversify the local economy.
    So thank you all for being here today. I just wanted to 
come up and say, welcome, it's good to have you here.
    And the issues that you address--when you look at the 
underserved veteran population of the State of Florida and 
those who are within not so many miles in terms of driving 
distance from the Orange County area, I think it's critical 
that you address these issues. So thank you very much.
    Congressman Grayson, it's good to see you, and I appreciate 
you being here today.
    The Chairman. Thank you, Mr. Mayor.
    Again, we will adjourn the formal part of this hearing, and 
Ms. Brown will chair the public comment period.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner,
             Chairman, Full Committee on Veterans' Affairs
    Good morning. I would like to thank the Board of County Commission 
Chambers for their generosity in providing a space for today's hearing.
    I thank the audience for their interest and for attending this 
hearing. I am pleased to see veterans and the various representatives 
of veterans service organizations in the audience.
    The purpose of this hearing is to discuss how we can build the 
critical health infrastructure for our veterans in Orlando. 
Specifically, we will focus our discussion on the new Orlando VA 
Medical Center to assess the progress that has been made to date.
    The new Orlando VA Medical Center at Lake Nona is a $665 million 
project, which would not have been possible without the tremendous 
efforts of Congresswoman Brown.
    By the time VA completes construction of the new facility, there 
will be a 134-bed hospital; a 120-bed community living center; a 60-bed 
domiciliary; an outpatient clinic; and, a veterans benefits mini-
service center.
    This state-of-the-art medical complex would address key 
deficiencies in the VISN 8 central market. Whereas the current space is 
a little under 370,000 gross square feet, the new construction will 
provide 1.15 million gross square feet of space for the proper delivery 
of healthcare to our veterans.
    With this extra space, the VA can expand its delivery of primary, 
specialty, diagnostic and mental healthcare. Concurrently, access to 
care is expected to double for the nearly 92,000 underserved veterans 
in east-central Florida.
    For the first time, VA will make available acute care, complex 
specialty care, and advanced ancillary and diagnostic services to the 
veterans of east-central Florida.
    Finally, I would also like to thank our panelists for participating 
in today's Committee hearing and I look forward to hearing their 
testimonies.

                                 <F-dash>
Prepared Statement of Neil R. Euliano, MBA, Ph.D., J.D., Past Chairman,
  Central Florida Veterans Memorial Park Foundation, Inc., Orlando, FL
    Chairman Filner, Ranking Member Buyer, Members of the Committee, I 
am pleased to appear before the Committee to speak on the 
infrastructure of the new Veterans Administration Medical complex at 
Lake Nona, and I thank you for this opportunity to discuss the 
potential for greatness of this facility.
    At its core, I believe this facility has a straightforward mission 
of providing the best possible medical buildings and facilities for 
those men and women that have and will have served this great Nation in 
defense of its freedoms. My discussion, however, will be on the 
critical health infrastructure that will serve those needy veterans.
    While the bricks and mortar may be straightforward . . . the 
infrastructure that will constitute this facility will be more 
difficult.
    We are preparing for a facility that will operate in the future.
    We must address an infrastructure that will exist 4/5 years out 
since completion will be in 2012/2013. We must use our very best 
efforts to make sure the infrastructure is state of the art AND 
malleable enough to adapt to future programs and needs. I realize it is 
difficult sometimes to think ahead when most of us do not believe in 
the weather forecast 3 days out. My point is that we are changing and 
changing rapidly.
    Did you know that the top 8 jobs in demand in 2010 (1 year away) 
did not exist in 2002?
    We are currently preparing our Nation's students for:

    <bullet>  Jobs that don't yet exist.
    <bullet>  Using technologies that haven't yet been invented.
    <bullet>  To solve problems we haven't yet identified.

    To wit:
    Convergent Engineering, a new emerging company in central Florida, 
focuses on applying artificial intelligence, advanced signal 
processing, and cutting-edge technology to biomedical research. Their 
goal is to solve high risk, high reward problems in Biomedical 
Engineering. Their core competencies include the use of computational 
intelligence to extract information from biomedical data and the 
development of in vivo communications systems. Data is everywhere, but 
useful information is rare. Currently, they have four major efforts/
projects: but I want to address just one and that is an electronic tag 
for medication adherence monitoring.
    Poor medication adherence has a significant negative impact on 
patients, pharmaceutical manufacturers, and the healthcare system. Non-
adherent patients suffer from increased mortality, increased recurrence 
of chronic conditions, and increased hospital and nursing home 
admissions. Pharmaceutical manufacturers experience decreased 
pharmaceutical revenue, $25 billion annually from unfilled 
prescriptions and increased clinical trial costs. The healthcare system 
suffers substantially increased costs estimated to be over $100 billion 
from increased patient care required, increased pharmaceutical costs, 
and the poor detection of pharmaceutical efficacy and side effects in 
clinical trials. In certain populations, such as psychiatric illnesses, 
patients are particularly prone to poor adherence.
    Under development is an ingestible sticker for attachment to 
medication that allows each pill to be uniquely identified once it 
enters the digestive tract. The detector is a small device that can be 
worn continuously on the wrist or arm (like an MP3 player) that 
automatically detects the tagged pills once they have been ingested. 
The system uses a proprietary integrated circuit designed to minimize 
the difficulties with communicating inside the body, as well as a 
patent-pending methodology for creating ingestible antennas and 
electronics.
    Let's look at the new inventions/procedures in just the last 5 
years . . .

    <bullet>  Surgical robots for performance of precise surgery.
    <bullet>  Wireless devices and communication (just now coming 
online).
    <bullet>  Electronic recordkeeping and data management, central 
storage, and privacy/security issues, x-ray/imaging storage and 
retrieval.
    <bullet>  Large CT/MRIs and other imaging devices.
    <bullet>  Expansion of office-based and surgicenter operations.
    <bullet>  Expansions of laparoscopic surgery.
    <bullet>  Proton beam cancer treatment.

    Now let's look at the future as we know it now for the next 5 years 
. . .

    <bullet>  New genetic medical research results.
    <bullet>  Nanomedicine.
    <bullet>  In vivo electronics (ocular, sensing, brain-machine 
interface, spinal cord, repair, etc.).

    We are not just changing, we are changing exponentially!!
    Will we be ready for this when our new VAMC opens in 4/5 years? I 
would like to believe we will.
    As Cathryn Bang (a Harvard, MIT graduate) states, there is a 
technology race in healthcare. Hospitals are investing in new medical 
and information technology at a frenetic pace. The goals are to improve 
patient outcomes, enhance patient safety, and decrease operating costs. 
Today's `must have' emerging technologies are affecting the planning 
and design of new facilities across the land. To accommodate new 
medical technologies, facility executives are increasing floor areas 
and floor to floor heights in new buildings. They are revising layouts 
in traditional hospital spaces, such as operating rooms and the 
emergency departments, and improving the infrastructure for 
telecommunications. New technologies for minimally invasive or non-
invasive procedures have become essential for hospitals. Additionally, 
there is a need for specialized training often required to implement 
it. Hospitals that have not yet installed positron emission tomography 
(PET), which is primarily used in cancer detection and treatment, are 
allocating space to accommodate it.
    The infrastructure can be comprised of hundreds of parts and it is 
impossible in the time permitted to lay them all out. However, they can 
be broken down into some major categories.
    The core areas are:

    <bullet>  Health workforce system.

      <bullet>  Who are the health workers? Are they capable and 
prepared to meet the demands ensuring the veterans are safe from 
various health threats? Here are just a few considerations.
      <bullet>  Who will keep our veterans healthy?
      <bullet>  Core competencies for all our health professionals.
      <bullet>  Availability of online health training.

    <bullet>  Information and communications systems

      <bullet>  Information, data, and communications systems are those 
elements of health infrastructure that help professionals diagnose, 
treat and alert health officials of potential problems. Here are a few 
considerations.
      <bullet>  Surveillance and alert systems.
      <bullet>  Health statistics and data bases.
      <bullet>  Data standards and interoperability.

    <bullet>  Organizational and systems capacity

      <bullet>  A strong health organization gives facilities the 
ability to use tools, information and their workforce to maximum 
benefit. Here are a few considerations.
      <bullet>  Partnerships.
      <bullet>  Facilities and laboratories.
      <bullet>  Laws policies and regulations.
      <bullet>  Plans and protocols.

    Earlier I mentioned a company in biomedical research; let me 
mention a few more companies with roots in central Florida with whom 
the VA hospital could partner.
    The United States Army's PEO STRI (Simulation, Research, Training 
and Instrumentation) located in Orlando; can integrate the latest 
methods in modeling and simulation and provide the VAMC with the latest 
technology available in the world.

    <bullet>  Burnham Research Institute, Orlando, Florida expanding 
their research in Chemistry, Pharmacology, and functional genomics.
    <bullet>  Nemours, a new central Florida neighbor is one of the 
largest children's care and research centers in America.
    <bullet>  University of Central Florida's new medical school and 
School of Nursing supplying healthcare professionals at every level.
    <bullet>  The Central Florida Research Park with its many cutting-
edge research firms that produce many new technologies.

    As I come to the end of my litany, please understand the lives of 
those men and women that served our Nation will be the recipients of 
what we do here. We must move forward at deliberate speed with a 
visionary approach to the future.
    Chairman Filner, Ranking Member Buyer, Members of the Committee, 
thank you again for inviting me to testify. I am honored to share my 
views with the Committee and look forward to a lasting relationship as 
we move toward completion of the VAMC in central Florida.

                                 <F-dash>
                Prepared Statement of William H. Nelson,
           Executive Director, USA Cares, Inc., Radcliff, KY
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to address the Committee at today's hearing on Building the 
Critical Health Infrastructure for Veterans in Orlando, FL. I am the 
Executive Director of USA Cares, a Kentucky-headquartered national 
charity providing financial assistance grants to military and veteran's 
families in times of need. USA Cares serves post 9/11 military and 
their families in three key areas: quality of life needs, housing, and 
combat injured (which includes visible and invisibly wounded). Since 
2003, USA Cares has provided over $5.5 million dollars in direct 
financial aid to help our military families in these three program 
areas.
    Our work in the Combat Injured program is most relevant to today's 
subject matter and I'd like to take a few minutes to describe what we 
have learned for the Committee's consideration. While USA Cares has 
provided significant financial relief to uninjured servicemembers and 
their families over these past 6 years, it is surely the combat injured 
who are presented with a host of unique challenges. We receive roughly 
5,000 requests for assistance per year--many of the toughest to resolve 
are those who have been injured in combat. Any servicemember or veteran 
who served since 9/11 in a combat zone and was shot, hit by an IED type 
explosion, or became chronically ill or injured--is eligible for 
assistance from USA Cares. Many of these combat injured have been 
discharged from active duty and now rely on the Veteran's 
Administration to competently deliver promised, and earned, medical 
benefits.
    One persistent issue that my caseworkers in our Advocate Center 
face is the often prohibitive distance from a medical care center to 
the veteran's home. One quick example--one of our National 
spokespersons--SGT Bryan Anderson--lost both legs and his left hand in 
an IED explosion in Iraq. He received great care during his recovery, 
but his prostheses were single sourced to a company four States away 
from his home. Whether he lived here in Florida or elsewhere, he has to 
have regular refitting and adjustments to his prostheses and must 
travel a considerable distance for this essential service to be 
performed. At USA Cares it is not uncommon for a wounded veteran to 
turn to us for financial help in reaching such necessary assistance. 
More attention needs to be paid to the sourcing for quality of life 
critical items like prostheses when the veteran's presence is necessary 
for adjustments/refitting.
    USA Cares developed its Warrior Treatment Today program in response 
to the significant need for veterans and active duty alike to access 
treatment for PTSD and TBI (post-traumatic stress disorder and 
traumatic brain injury). The RAND study of last April indicated over 
300,000 afflicted personnel with over half undiagnosed or untreated. 
Many veterans do not accept residential rehabilitation for PTSD due to 
their need to keep a job and pay the bills. USA Cares, in cooperation 
with the VA, is working with veterans referred to residential rehab 
treatment by paying their household bills while in treatment--thus 
removing one barrier to treatment. This program is up and running in 
Texas and we intend to extend it to Florida and Kentucky. Florida has 
two residential rehab centers for PTSD--both are operating at capacity 
with waiting periods of 2 months or longer (this is consistent with 
other VA rehab centers in other States). Given the alarming suicide 
rate among this group, I believe a more robust public-private 
partnership needs to be nurtured here in Florida and nationwide. In 
Texas we have private-sector providers who currently provide DoD 
approved PTSD residential rehab programs with active duty patients in 
them as we speak. This safety valve of a private sector program is 
saving lives that might be lost while in the waiting line for the VA's 
overcrowded facilities. We had an OIF/OEF veteran who had an assigned 
bed date for the Waco, Texas residential rehab program that was over 2 
months away. He attempted suicide (he has a wife and two children) was 
briefly hospitalized, but upon release, he still had 2 months to go 
before treatment. Working with the local OIF/OEF VA coordinator, we 
found private foundation funds to enable him to immediately enter the 
PTSD program of one of our private sector partners and thus, we 
believe, saved his life. The OIF/OEF coordinator did not have VA funds 
to make this option happen; instead she had to rely on a local 
foundation. Like their coworker in Texas, I believe most OIF/OEF 
coordinators I have worked with would eagerly embrace such an option if 
the funds were available to ``fee out'' high risk veterans to these 
private sector programs. I encourage the Committee to identify line 
item funding that could be directly accessible by local OIF/OEF 
coordinators for high risk veterans. The recent murder/suicide reported 
in Las Vegas of a troubled Air Force enlisted man is unacceptable, but 
only one instance of the over 6,500 veterans who commit suicide each 
year. Anything that you can do to prevent even one more loss is worth 
it.
    In a final note on infrastructure, I believe based on our 
experience of 6 years assisting post 9/11 veterans, that the public-
private partnership is the best answer to a number of critical, right-
now needs. Building more VA hospitals, newer hospitals, is a fine thing 
(I am a 20 year Navy veteran and I appreciate it!), and finding medical 
staff to fill those hospitals is an ongoing challenge I know, but I 
hope the Committee will take under advisement the fact that certain 
needs must be addressed NOW--before we see another generation of 
veterans lost to the streets and addic- 
tion. They deserve much better for their sacrifices on our Nation's beha
lf. Thank you.

                                 <F-dash>
  Prepared Statement of Jerry W. Bass, National Senior Vice Commander,
    Allied Veterans of the World, Inc. and Affiliates, Callahan, FL
    Mr. Chairman, distinguished Committee Members, my name is Jerry W. 
Bass. I reside at 2826 Waterview Circle, Jacksonville, Florida. I am a 
veteran, and have served our country in the United States Air Force. 
Currently, I am the National Senior Vice Commander of Allied Veterans 
of the World, Inc. and Affiliates. Some of you may remember when 
Congressman Andre Crenshaw recognized our organization on the floor of 
Congress last September. We are a small but persistent veterans 
organization that works tirelessly toward achieving one goal and one 
goal only . . . that of improving the state of veterans' healthcare.
    During the last 20 months, we have donated over $2.7 million, most 
of which has been donated to the veteran healthcare system in Florida. 
We realize you as a Committee and Congress cannot do it all and that is 
why Allied Veterans is committed to improve the quality of veterans 
healthcare. Nonetheless, I would like to commend you for your 
outstanding support of veterans. In these trying times when our dollars 
are stretched to the limit, you as a Committee and Members of Congress 
have given Veterans Affairs the largest operational budget to date, 
during its 77-year history. Thus far, your commitment has directly 
impacted millions of veterans, however as the influx of veterans in 
Florida continues to increase, so does the need for an increased 
healthcare budget for our State's veterans.
    The new VA hospital is slated to be built here in Orlando in 2012 
and will serve over 400,000 veterans in the East Central section of 
Florida. Without your ongoing dedication to our veterans, this new VA 
hospital would not be possible. This future, state-of-the-art facility 
will be a reminder that today's VA, is not the VA that our fathers 
knew. I often think of a story told by Congresswoman Corrine Brown, as 
she described her visit to a Florida VA hospital. She explained that 
several veteran patients were housed in a hospital ward where all the 
ailing patients were expected to use the one bathroom assigned to them. 
This bathroom was located at the end of the hallway--yes, at the END of 
the hallway. Try to recall the last time you were a patient in a 
hospital. Can you imagine attempting to walk to the end of the hallway 
to use a bathroom while sick in a hospital, and then having to wait 
your turn? It was during that hospital visit when Congresswoman Brown 
vowed to make a difference in Florida's veteran healthcare system, and 
she has.
    It is that kind of dedication we need from this Committee and from 
Members of Congress. The funding for the operation of the new Orlando 
VA hospital is going to be critical. The allotted funding will not only 
serve over 400,000 veterans in this area, but it will also support the 
VA outpatient clinics in areas such as: Daytona, Viera, Leesburg, 
Kissimmee and Orange City. These facilities all fall under the funding 
of the Orlando VA hospital.
    Ladies and gentlemen, we all recognize the need for vast 
improvements in the veteran healthcare system. When faced with the 
vital decisions regarding funding for veterans healthcare, please 
proceed with due respect of our veterans' steadfast dedication to our 
country--dedication to our children's country--and unrelenting 
sacrifice to uphold our country's freedoms. I believe it is our duty to 
give back to those who have given so much to our country. Our veterans 
continue to unite America's heart and soul. Please continue to protect 
the healthcare of our country's heroes just as they dedicated their 
lives to protect our country and its freedom! Please stand up on behalf 
of veterans, and honor their sacrifice by continuing to improve 
veterans healthcare in the State of Florida! God bless you!

                                 <F-dash>
        Prepared Statement of Colonel Tom Walters, USAF (Ret.),
         President, Central Florida Veterans, Inc., Orlando, FL
    Good morning, I am Tom Walters. I am a retired Colonel having 
served 28\1/2\ years in the United States Air Force. I currently serve 
as the President of Central Florida Veterans, Incorporated.
    Florida has the second-largest population of veterans in the United 
States, second only to the great State of California where I grew up 
and from where I entered the Air Force. Florida is number one in the 
Nation with a veterans population that is 50 percent disabled or 
greater. Florida is number one in the Nation with a veterans population 
that is over 65 years of age. Florida is ranked 23rd in the Nation when 
it comes to funding veterans' programs. I feel this needs to be 
addressed and corrected.
    It is my understanding the stem problem is that Federal funding for 
veterans programs is based on the proportional number of individuals 
that entered the military from a given State. As I mentioned earlier, I 
entered the Air Force from California and yet I decided to retire in 
central Florida. If my understanding is correct, funding for my portion 
of veterans programs is going to California not Florida where I reside.
    We are thrilled with the prospect of the new Veterans 
Administration Medical Center; it will cure the vast majority of the 
shortfalls in the healthcare infrastructure for veterans here in 
central Florida.
    Current projected cost to finish out the project is $371 million, 
which I have been told we will see funded in the FY 2010 Federal 
budget. In today's ``recessed'' economy that dollar amount appears 
right on target. However, if the stimulus program gains traction and 
construction rebounds, $371 million may not be adequate due to higher 
demand and cost of materials and labor. I ask Congress and this 
Committee to keep an eye on actual costs so we don't have to downscale 
what is planned to be a ``first class'' facility.
    Speaking of ``first class,'' I haven't heard of budgeting for 
equipment and furnishings. In the mid 1990s, I helped close a similarly 
sized Air Force hospital. If my memory is good, the depreciated value 
of the furnishings was in the neighborhood of $70 million. I would 
expect the cost of state-of-the-art equipment, along with furnishing, 
in today's market, would bring a price tag of $150 to $200 million. 
Hopefully, this is already being worked with consideration of early 
funding for ``long lead'' equipment items.
    Another issue that is critical to the healthcare infrastructure for 
veterans is the adequate and timely funding of annual operational 
costs. We, the Central Florida Veterans, have discussed and support 
advance funding, or in effect 2-year funding, to avoid falling under a 
``continuing resolution'' year after year. In 19 of the past 22 years, 
Congress has failed to pass a VA funding bill before the start of the 
new fiscal year. The idea is to end funding delays that force VA 
hospitals and clinics to defer maintenance and freeze hiring as they 
operate for months under a ``continuing resolution.''
    My final topic is transportation. It would be sad if you built it 
and they can't come. Transportation to and from our new healthcare 
infrastructure is critical for many Central Florida Veterans. As mass 
transit projects for central Florida are discussed in Washington, DC, 
first, please support the appropriate projects and second, advocate and 
support that the VA Medical Center needs to be included as a 
``destination.''

                                 <F-dash>
     Prepared Statement of Andrew H. Marshall, Supervisory National
   Service Officer, Department of Florida, Disabled American Veterans
    Mr. Chairman and Members of the Committee:
    Thank you for inviting the Disabled American Veterans (DAV) to 
testify at this field hearing of the Committee on Veterans' Affairs on 
building the critical health infrastructure for veterans residing in 
and around Orlando, Florida. The DAV is an organization of 1.2 million 
service-disabled veterans, and devotes its energies to rebuilding the 
lives of disabled veterans and their families.
    As you may know, the almost 30-year struggle to construct a 
hospital in central Florida began in the 1980's and 1990's. Plans to 
build a 470-bed Department of Veterans Affairs (VA) hospital that would 
serve disabled veterans in this area have been made and have failed. In 
1983, VA indicated it would build the hospital in Brevard County 
because it is farthest from VA facilities in Tampa and Gainesville, 
both of which were then serving central Florida veterans. In 1992, VA 
revived the plan to construct the hospital southeast of Orlando. 
Between the site selections, hospital designs, and funding problems, 
this proposal shrank to an outpatient clinic, which opened in 1999.
    Since the 1990's, Florida's veteran population has grown from 1.55 
million to more than 1.8 million. Such growth moved Florida from the 
fourth to the second State with the largest veterans population in the 
country with nearly 400,000 veterans located in the central Florida 
area. Notably, this number does not include those veterans who choose 
to make Florida their home during the winter months of the year.
    It has been a concern for the DAV Department of Florida that less 
than half of the veterans in the Orlando region are within VA's access 
standards for hospital care. They average 2 hours of travel time to get 
to a VA hospital located in Tampa, Gainesville, or Jacksonville for 
treatment that often turns out to be an all day affair. This includes 
veterans living in Orange, Seminole, Brevard, Volusia, Osceola, Polk 
and Lake Counties. With the economic downturn, and because so many 
disabled veterans exist on small fixed incomes, some find that the cost 
of transportation to a VA hospital is just too high and are left with 
two choices: they could ration or even go without the treatment they 
need, or skimp on food or other necessities to pay for transportation.
    To ease the burden of traveling these distances, the DAV Department 
of Florida supports the DAV Transportation Network, which allows 
disabled veterans to get to and from VA healthcare facilities for 
needed treatment. In Florida, DAV Hospital Service Coordinators (HSCs) 
operate 10 active programs. They have recruited volunteer drivers who 
logged 56,196 miles last year, providing 38,112 veterans rides to and 
from VA healthcare facilities. To meet appointments at the Orlando 
VAMC, 1,358 veterans were transported over 21,944 miles. Many of these 
veterans rode in vans DAV purchased and donated to VA healthcare 
facilities for use in the Transportation Network.
    With great concern for our fellow disabled veterans in need of 
medical care, the DAV Department of Florida supports the construction 
of a new Orlando VA Medical Center, which will serve central Florida 
veterans. This six-county region has one of the largest concentrations 
of veterans in the United States without a veterans' hospital. The 
number of veterans seeking healthcare in central Florida is expected to 
peak at 107,500 between 2010 and 2015, up from the current 90,000 
veteran patients who made hundreds of thousands of outpatient visits to 
local VA clinics in Leesburg, Kissimmee, Orlando, and Viera.
    While previous efforts have been unsuccessful, formal plans for a 
VA Medical Center to be located in Orlando, Florida, gained momentum 
when it was included in VA's Capital Assets Realignment for Enhanced 
Service (CARES) Draft National Plan. As many at this hearing are aware, 
CARES represents the most comprehensive effort to develop a road map 
that will guide the allocation of capital resources within the Veterans 
Health Administration (VHA). According to the Draft National Plan, 
construction of the Orlando VAMC is needed to meet the growing demand 
for primary and specialty care, and a need for acute care beds.
    Proving that the third time is a charm, Members of this Committee 
and the Florida Congressional delegation were successful in securing 
funding to construct a new medical facility here in Orlando, which 
should be ready to open in 2012. This past September, VA completed its 
acquisition of 65 acres of land at Lake Nona which was selected in 
March 2007. In October, Florida disabled veterans, members of the DAV 
Department of Florida, local elected officials, Senators and 
Representatives, and then-Secretary of Veterans Affairs, Dr. James B. 
Peake, were in attendance during the groundbreaking ceremony of the 
Orlando VAMC. This was a proud day for all who have persisted and 
persevered over nearly 30 years.
    The Orlando VA Medical Center is to have a 134-bed inpatient 
diagnostic and treatment hospital, large outpatient clinic with support 
services, 118-bed nursing home, 60-bed domiciliary, and a veterans 
benefits mini service center. We believe the new facility will make it 
easier for east-central Florida veterans to access needed medical care 
and relieve the burden of traveling long distances for their inpatient 
care. Moreover, we believe it is proper that the VA outpatient clinic 
at Baldwin Park, which has a nursing home and transitional housing for 
veterans dealing with mental health and co-morbid conditions will 
remain open until the transfer of such services to the new Medical 
Center is completed. We stand ready to work with the Veterans 
Integrated Service Network and Medical Center leadership in re-
evaluating the future of this clinic.
    As the Orlando VAMC will be situated across the street from the 
University of Central Florida's (UCF) College of Medicine and Health 
Sciences campus, along with the Burnham Institute for Medical Research 
East Coast Campus, University of Florida Research Center, and the M.D. 
Anderson Orlando Cancer Research Center. Such a ``Medical City'' 
complex in southeast Orlando will help preserve VA's world-class 
medical care buttressed by its numerous academic affiliations. In this 
instance, the UCF's 4-year clinical education curriculum set to open 
this fall is projected to produce about 120 medical graduates each year 
offering. Florida veterans would benefit from such an affiliation with 
clinical training as well as clinical trial opportunities. 
Additionally, Orlando's Florida Hospital is poised to partner with the 
VA to help share in the costs of diagnostic equipment and contribute to 
residency and staffing needs. This commitment will ensure that veterans 
have access to additional resources to further enhance the medical 
services the VA may offer to them.
    While much has been accomplished to date, more work needs to be 
done. We urge this Committee to continue its work to ensure funding to 
complete construction of this facility is secure and that it continue 
its strong oversight to ensure construction timelines are met. This 
facility is greatly needed and disabled veterans should not suffer any 
more delays.
    Mr. Chairman, this concludes my testimony. The DAV Department of 
Florida would again like to thank the Members of this Committee, the 
Florida Congressional Delegation, and all veterans who have worked 
tirelessly to help build the critical healthcare infrastructure for 
central Florida veterans.

                                 <F-dash>
       Prepared Statement of Jerry Mullenix, Assistant Adjutant,
                 Department of Florida, American Legion
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to present The American Legion's 
views on the importance of a fully functional health infrastructure for 
veterans in central Florida. In 2004, through the Capital Asset 
Realignment for Enhanced Services (CARES) process, it was ascertained 
that the central Florida catchment area was underserved. Less than half 
of the catchment area veterans were within access standards for 
hospital care. This justified the need to build a new replacement 
medical facility.
    As the construction of the Orlando Veterans Affairs Medical Center 
(Orlando VAMC) gets underway, The American Legion restates its position 
on building a healthcare system that revolves around the special needs 
of veterans. In accordance with the CARES Commission Report of 2004, 
The American Legion also reiterates the tasks of identification of the 
intricacies of services and surgical procedures, post-operative and 
intensive care, patient safety, and supportive infrastructure. We also 
stress the importance of the ongoing modernization and configuration of 
Department of Veterans Affairs (VA) facilities to ensure they 
constantly meet the demands of advanced medicine.
    By 2012, the campus is mandated to be fully functional on its new 
location in South Orlando (Lake Nona) across from the new University of 
Central Florida Medical School. The American Legion applauds VA for its 
continued efforts in connecting its medical facilities with 
institutions of modern advanced medicine and technology.
    While The American Legion also applauds the VA on its transition 
from caring for 90,000 veterans at the current facility to 400,000 
veterans in the upcoming facility, we feel inclined to remind the 
Congress of the importance of the new facility's physical purpose; 
which is to accommodate the ever-progressing medical disciplines within 
its walls to ensure deliverance of quality and adequate care to this 
Nation's veterans.
    Due to the ongoing complexity of illnesses and conditions from 
Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) returnees, 
as well as the medical issues of the growing number of aging Gulf War 
and Vietnam veterans and current elderly Korean War and World War II 
enrolled veterans receiving and seeking VA healthcare, a more 
sophisticated and serviceable infrastructure is required. This includes 
the assurance of comprehensive care for women veterans. Currently, 
approximately 49 percent of women veterans are dual medical system 
users. This means they are using VA and non-VA services for their 
healthcare needs. This is due to the lack of needed medical care 
available at VA.
    According to a recent National Institute of Health report, women 
veterans' use of VA and non-VA providers is influenced by the scope of 
clinical services and dissatisfaction with those services. It was 
recommended that VA clinics either promote routine gynecological care 
within primary care clinic settings or pair traditional primary care 
with VA women's clinics to enhance coordination and comprehensiveness 
of medical care and, thus, reduce the fragmentation of care for women 
veterans.
    In addition, all must be mindful of the upcoming increase of newly 
enrolled Priority Group 8 veterans into the VA healthcare system. The 
increase will begin with approximately 265,000 veterans by July 2009. 
With Florida being second only to California with the largest 
population of veterans, one can assume the influx will have a 
significant impact on the VA healthcare system in Florida to include, 
within the central Florida region. It is the position of The American 
Legion that all mandated personnel involved in the building of the new 
VAMC must remain proactive throughout its construction and beyond due 
to the complex issues the current facility faces.
    To improve on the future, we are to constantly be reminded of the 
lack of quality care veterans have received in the central region of 
Florida and the importance that it be maintained far beyond the level 
of complacency. In a recent U.S. Government Accountability Office (GAO) 
report, it was discovered that the VA was experiencing a shortage of 
nurses. Nurses are the largest group of healthcare providers employed 
by the VA.
    According to the GAO report on shortages of nurses, it was noted 
that maintaining the nurse workforce at VA is critical to the care of 
the veteran population, since studies have shown that a shortage of 
nurses, especially when combined with a greater workload, can adversely 
affect patients and the care they receive. For example, hospitals with 
fewer nurses have demonstrated higher rates of problems such as urinary 
tract infections and pneumonia. The American Legion urges the Congress 
to assess the very issues, past and present, and ensure those problems 
aren't transferred to the upcoming facility.
    Also, according to the Orlando VAMC, many veterans who previously 
did not require services are currently enrolling due to job losses and 
financial hardships. In December 2008, the Orlando VAMC patient 
enrollment increased by 20 percent with approximately 600 new patients. 
The Orlando VAMC management expects higher numbers monthly throughout 
2009. From 2007 to present VA has added approximately 600 new 
employees. This implies a significant increase of demand for services 
at the current facility, which will be transferred to the Lake Nona 
location.
    With regard to the dilapidating physical plant of the Orlando 
medical facility, The American Legion believes that no healthcare 
delivery system can be expected to provide quality care unless the 
physical settings that house such care are also state of the art. The 
resulting deficiencies from the shortcomings of the current facility 
cannot be allowed to permeate the culture of the upcoming facility. The 
American Legion recommends when constructing the new facility that 
terms like ``best practices'' and ``striving to maintain excellence'' 
must be taken literally by VA to ensure all enrolled veterans will 
receive the best medical care in the new state-of-the-art facility.
    The GAO report of March 2007, ``VA Should Better Monitor 
Implementation and Impact of Capital Asset Alignment Decisions,'' noted 
various issues that warranted the construction of a new Orlando medical 
facility. They included:

    <bullet>  Facility condition and location. Expanding the existing 
Orlando medical facility to meet growing demand was ruled out as an 
option because there was inadequate land available at the existing site 
to accommodate a larger facility, thereby warranting the need for a new 
facility.
    <bullet>  Access issues. GAO ascertained that a new medical 
facility was needed in Orlando to meet the CARES access proximity 
standard. This was warranted because only 45 percent of the veteran 
population in the Sunshine Health Care Network resided in an area that 
met the standard. It was concluded that the new facility would increase 
the percentage of veterans living within 1 hour of acute patient care 
to approximately 80 percent.
    <bullet>  Veteran population growth. The central Florida region had 
the largest workload gap and greatest infrastructure need of any market 
in the Nation.

    The American Legion urges the execution of all policies that led to 
the decision, design and construction of the new medical facility to 
include the GAO recommendation that VA implement a new staffing system 
and assess the barriers to alternative work schedules to alleviate 
retention and staff shortages, particularly within the nursing 
division. Every issue discussed in this presentation is essential to a 
completely functional and effective healthcare system. All are 
intertwined with the purpose of caring for veterans with various 
complex issues. Leaving these issues and anticipated issues unattended 
would render this task futile.
    In conclusion, as this project develops, The American Legion 
recommends the Congress be constantly aware of new medical issues that 
arise and anticipate treating them. Such issues include, military 
sexual trauma (MST), women veterans' comprehensive care, traumatic 
brain injury, mental health, spinal cord injury, blindness and other 
eye injuries, long-term care, increased outreach, and the inclusion of 
newly enrolled Priority Group 8 veterans, to name a few.
    Mr. Chairman, thank you again for this opportunity to address this 
Committee on the importance of infrastructure within the central 
Florida healthcare network. The American Legion looks forward to 
working with you to continue to enhance the mission to provide adequate 
and quality care to central Florida's veterans.

                                 <F-dash>
         Prepared Statement of Robert L. Neary, Jr., Director,
    Service Delivery Office, Office of Construction and Facilities 
                              Management,
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Ranking Member Buyer and Members of the Committee, I 
am pleased to appear before the Committee today to discuss the progress 
that has been made in bringing a Department of Veterans Affairs (VA) 
hospital to Orlando. This hearing provides an opportunity to update the 
Committee and members of the veteran community on the status of the 
project. First, let me introduce Mr. Tim Liezert, Director of the 
Orlando VA Medical Center, who is accompanying me today.
    As members of the veteran community know, for many years there has 
been discussion about constructing a VA hospital here in Orlando. We 
are now making real progress toward that goal. We have acquired the 
site for the new facility. The architects are well along in the design 
process. Congress has authorized the project and appropriated $294 
million toward the site acquisition, design and construction. I am 
pleased to report that construction will begin this year.
    Let me provide some specifics. The new Orlando VA hospital will be 
constructed on a 65 acre site in the Lake Nona development in southeast 
Orlando. It will be adjacent to the new medical school of the 
University of Central Florida. As the Committee knows, the VA 
healthcare system benefits significantly from the more than 100 
affiliations it has with medical universities across the Nation.
    The new facilities will consist of an inpatient hospital with 134 
hospital beds, a 120-bed community living center, a 60-bed domiciliary, 
and an outpatient center with the capacity to care for 675,000 
outpatient visits per year. In total, over 1.2 million square feet will 
be constructed and the initiative has a total project cost of $665.4 
million. These facilities will be staffed by 2,100 healthcare providers 
and support personnel. VA anticipates more than 113,000 Veterans will 
receive care at the new facility.
    We expect construction of these new facilities to start early this 
summer with the award of the first contract to begin site development 
and to organize utilities at the site. VA will negotiate other 
contracts concerning the community living center, the domiciliary, and 
inpatient and outpatient structures, the energy center and parking 
garages. We anticipate completing all construction in mid-2012 followed 
by the activation of the facility.
    This project demonstrates the Nation's commitment to care for our 
veteran heroes. Not only in Orlando, but across the country, new and 
improved facilities for veterans care are in design or under 
construction. Since 2004 $5.6 billion has been appropriated for the 
Department's major construction program with over 50 major projects 
receiving funding to provide new facilities and improve and expand 
existing ones.
    We look forward to completing the new hospital here in Orlando and 
facilities at other locations and will be pleased to answer questions 
the Committee may have.

                                 <F-dash>

                   MATERIAL SUBMITTED FOR THE RECORD

                                      Congress of the United States
                                           House of Representatives
                                                    Washington, DC.
                                                     April 21, 2009

The Honorable Bob Filner
Chairman
House Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, DC 20515

Dear Chairman Filner:

    Thank you, Mr. Chairman and Members of the House Veterans Affairs 
Committee, for holding the hearing this morning to address the status 
of the veteran healthcare infrastructure here in the Orlando area. 
While I am unable to be with you, I am pleased that the Committee has 
recognized many of our local veterans leaders and will listen to their 
concerns and suggestions regarding VA services in central Florida.
    Mr. Chairman, I've had the honor to work with many great local 
veteran leaders, some of whom you will hear from today, to ensure that 
the new VA hospital here in Orlando becomes a reality. While we have 
made progress with the hospital, we need a strong Federal commitment to 
finish the much needed veterans medical facility. We have made 
significant progress in meeting veterans medical needs, but we have a 
much larger challenge to assist our veterans who are challenged with 
addiction, mental health problems and homelessness. Furthermore, we 
must find ways to aid our returning veterans and their families in 
keeping their homes and providing them with job training skills.
    Thank you again, Chairman Filner, for addressing issues important 
to our veterans in central Florida. I want to assure the Committee and 
the panelists today that I will continue to put my full support behind 
efforts to provide the necessary funds and services to our local 
veterans.

            Sincerely,
                                                       John L. Mica
                                                 Member of Congress

                                 <all>

</pre></body></html>
